Semiannual Report to the Congress                                         April 1, 1997 - September 30, 1997




THE INSPECTOR GENERAL’S MESSAGE

This Semiannual Report of the Office of Inspector General (OIG) details some of the audit and
investigative activities conducted in support of our strategic goals during the period of April 1,
1997 through September 30, 1997. The OIG strategic plan establishes five goals aimed at
helping the Department improve the effectiveness and cost efficiency of its programs and
operations and to help contribute toward the Government’s effort to reduce organized crime
influence and labor racketeering activities in the workplace. Our intent is to ensure that our
audit and investigative activities help the Department’s programs and services reach and
maintain an optimum level of performance, address key issues of concern to the Congress,
and ensure that taxpayer interests are served.

The OIG is focusing considerable attention on the Department’s effective implementation of
the Government Performance and Results Act (GPRA) of 1993. The GPRA represents a new
era of accountability for Government programs and services. Resources permitting, we in-
tend to expand our traditional audit and investigative functions by leveraging our resources
and in-house expertise to provide relevant oversight, while being responsive to requests from
the Department for consultation, technical assistance and special reviews in conjunction with
GPRA. We also intend to increase our level of effort in combating labor racketeering in the
workplace, particularly as related to identifying and investigating abuses by service providers
to pension plans.

I am gratified by the support that Secretary Herman has shown for the work of the OIG. I look
forward to continuing to work together with her and her management team to assist them in
ensuring the effectiveness of the Department in delivering services and protecting the rights
and benefits of American workers and retirees.



Charles C. Masten
Inspector General




                                                 i
Semiannual Report to the Congress                                                                             April 1, 1997 - September 30, 1997




TABLE OF CONTENTS
TABLE OF CONTENTS ........................................................................................................................... i

THE INSPECTOR GENERAL'S MESSAGE ..............................................................................ii

EXECUTIVE SUMMARY .......................................................................................................... iv

SELECTED STATISTICS .......................................................................................................... 1

EMPLOYMENT AND TRAINING ............................................................................................... 2
Job Training Partnership Act ................................................................................................................ 3
    Job Corps ........................................................................................................................................... 3
   Job Corps Consultation Activity ........................................................................................................ 11
School-To-Work .................................................................................................................................... 13
     Barriers to Work-Based Learning .................................................................................................... 14
One-Stop Career Centers ................................................................................................................... 15
Other Employment and Training Programs ....................................................................................... 16
     Other Employment and Training Consultation................................................................................ 18
Employment and Training Investigations ........................................................................................... 19
Audit Resolution ................................................................................................................................... 21
      Unresolved Audits Over 180 Days Old ......................................................................................... 24


WORKPLACE BENEFITS ...................................................................................................... 25
Pension and Employee Benefit Plan Enforcement ........................................................................... 25
Worker Disability Benefits ................................................................................................................... 30
Department of Labor Compensation Programs ...................................................................................... 30
       Federal Employees’ Compensation Act ...................................................................................... 30
       Claimant Fraud ............................................................................................................................ 36
       Longshore and Harbor Workers’ Compensation Act ................................................................... 38
Unemployment Insurance Benefits .................................................................................................... 39
Fraud in the Unemployment Insurance Program .................................................................................... 39
Audit Work in the UI program .................................................................................................................. 41

OIG LABOR RACKETEERING PROGRAM ............................................................................ 46
Industry Probes ..................................................................................................................................... 47
Civil RICO Actions ................................................................................................................................ 47
Internal Union Affairs ............................................................................................................................ 50
Employee Benefits and Pension Plans .............................................................................................. 50




                                                                        ii
Semiannual Report to the Congress                                                                          April 1, 1997 - September 30, 1997



WORKPLACE STANDARDS ................................................................................................. 56
Wage and Hour .....................................................................................................................................   56
   Davis-Bacon ....................................................................................................................................   56
   Davis-Bacon Fraud .........................................................................................................................        57
   FLSA Enforcement ..........................................................................................................................        58

DEPARTMENTAL MANAGEMENT ........................................................................................ 59
Employee Integrity and Ethics .............................................................................................. 61

APPENDIX ............................................................................................................................... 62

Reporting Requirements ........................................................................................................... 63
Explanation of Audit Schedules ................................................................................................. 64

AUDIT SCHEDULES .............................................................................................................. 65
  Questioned Costs ................................................................................................................ 65
  Disallowed Costs................................................................................................................. 65
     Recommendations That Funds Be Put To Better Use .....................................................................                            66
     Unresolved Audits Over 6 Months ...................................................................................................              67
     Final Audit Reports Issued by the OIG.............................................................................................               70
     Final Single Audit Reports ...............................................................................................................       72

INVESTIGATIONS SCHEDULES ........................................................................................... 74
   Breakdown of Accomplishments ........................................................................................ 74
   Complaint Activity ............................................................................................................... 75
   Financial Accomplishments ............................................................................................... 76
   Office of Investigations Case List ........................................................................................ 77

LIST OF ACRONYMS .............................................................................................................. 83




                                                                      iii
Semiannual Report to the Congress                                                      April 1, 1997 - September 30, 1997




   EXECUTIVE SUMMARY OF OIG ACTIVITIES

                                    The Office of Investigations (OI) is committed to the prevention
 OFFICE OF                          and detection of fraud, waste and abuse within DOL programs
 INVESTIGATIONS                     and responsibilities. The Office of Investigations consists of two
                                    components: the Division of Labor Racketeering and the Divi-
                                    sion of Program Fraud. The Division of Labor Racketeering (LR)
                                    conducts criminal investigations to eliminate the influence of or-
                                    ganized crime, labor racketeering, and corruption in employee
                                    benefit plans, labor-management relations, and internal union
                                    affairs. The Division of Program Fraud conducts criminal inves-
                                    tigations into allegations of fraud and misconduct in the
                                    Department’s programs and operations.

                                    The following are some of our most significant investigative ac-
                                    tivities this period.

  Pension Plan Fraud                As part of our continuing efforts to uncover schemes involving
                                    pension plan fraud, we successfully completed several investi-
                                    gations in this area. Of note was a 10-year long investigation
                                    involving the owner of a roofing company who failed to contribute
                                    over $1 million into the pension and retirement fund of a local
                                    union. This businessman was sentenced to one year in prison,
                                    and ordered to pay $1.5 million in restitution .................. pg. 52

                                    An attorney for an employee benefit plan was sentenced to over
                                    5 years in prison and ordered to pay $9 million in restitution fol-
                                    lowing a guilty plea to charges of conspiring to solicit and receive
                                    kickbacks related to influencing an investment of $10 million of
                                    pension funds that was lost in a scheme to divert pension assets
                                    to off-shore investments ................................................ pg. 51

  Reducing Fraud in                 The OIG completed several investigations aimed at reducing
  DOL's Disability                  fraud against the Government’s disability programs. For ex-
  Programs                          ample, a crane operator for the U.S. Department of Energy was
                                    indicted for fraudulently receiving over $107,000 in FECA ben-
                                    efits. He had falsely submitted a claim for a job-related injury
                                    while owning and operating an automobile repair shop.....pg. 36




                                                         iv
Semiannual Report to the Congress                                                          April 1, 1997 - September 30, 1997



                                    A former electronics engineer with the Department of Navy was
                                    ordered to pay $87,551 in restitution and was sentenced to 8
                                    months incarceration for fraudulently obtaining FECA benefits.
                                    He was earning income as an Executive Director at a company
                                    owned by his wife, and investigative efforts revealed that he was
                                    performing physical activities which were inconsistent with his
                                    reported medical restrictions ......................................... pg. 37

                                    A former Newport News Shipyard employee was indicted for
                                    defrauding the Longshore Harbor Workers’ Compensation Act
                                    (LHWCA) program of over $53,000 in compensation and medi-
                                    cal benefits .................................................................. pg. 39

                                    In another OIG investigation, an individual was sentenced to 24
                                    months in prison and 2 years of supervised release following a
                                    guilty plea to charges of defrauding the Michigan Unemployment
                                    Insurance Program of approximately $248,000............... pg.40


                                    The Office of Audit (OA) is committed to assisting DOL man-
 OFFICE OF                          agement in re-examining programs and processes with a view
 AUDIT                              toward improving the way work is done and, therefore, ensuring
                                    accountability for achieving results. Through our audits, we seek
                                    to determine whether reasonable value is obtained for the tax-
                                    payer dollars spent on departmental activities and functions and
                                    to identify and share successful and cost/beneficial ideas and
                                    methods throughout the Department. In addition, we provide
                                    consultation and technical assistance to the Department.

                                    The following are some of our more significant audit activities
                                    this period.

 Medical Providers                  This audit found a projected $7 million loss to the FECA pro-
 Overbill FECA                      gram because of improper medical provider billings. We
 Millions Each Year                 concluded that DOL can save millions of dollars each year by
                                    using commercial code manipulation detection packages to
                                    screen for improper billings ............................................ pg.31

 Pension and Welfare     Throughout the development of the Employee Retirement Income
 Benefits Administration Security Act Filing and Acceptance System (EFAST) and En-
 Systems Development forcement Management System (EMS), the OIG has raised a
 Updated                 series of concerns with PWBA. We are currently working with



                                                           v
Semiannual Report to the Congress                                                         April 1, 1997 - September 30, 1997



                                    PWBA to resolve issues related to the increased use of elec-
                                    tronic filing which would result in significant savings to the
                                    Government. .................................................................. pg.28

 Former Students of                 The OIG audited the job training and placement services pro-
 DOL’s Plastering                   vided by the National Plastering Industry’s Joint Apprenticeship
 and Cement Mason                   Trust Fund. An analysis of the post-program employment expe-
 Training Program                   rience of former students disclosed that a sizable number are
 Experience Difficulties            having difficulty keeping and/or obtaining employment. The au-
 Maintaining                        dit disclosed that only minimum post-placement follow-up services
 Employment                         were provided to these former student ............................. pg. 3

 School-To-Work (STW)               The audits performed on STW grants awarded to Indiana and
                                    Missouri found three major factors that complicate successful
                                    implementation of the STW system: union shops, child labor laws,
                                    and liability insurance. In addition, we identified over $51,000 in
                                    questioned costs ........................................................... pg. 13

 Questionable                       This audit disclosed that Mainstream, Inc., a “not-for-profit” cor-
 Accomplishments By                 poration funded by DOL to provide employment assistance to
 Disability Partnership             disabled workers with special needs, has serious deficiencies
 Grantee                            in the administration of its program regarding: the quality of train-
                                    ing, placement services, and follow-up provided to people with
                                    disabilities, the performance of Mainstream’s Project Link, and
                                    the adequacy of the grantee’s record keeping. Our performance
                                    audit also found that most of the program’s reported performance
                                    data was “questionable.” Since ETA had not done an evaluation
                                    of Mainstream in many years, we recommended that ETA con-
                                    duct an in-depth evaluation of this grantee to improve
                                    performance .................................................................. pg.17

OIG Identifies $381 Million         This audit disclosed that the Employment and Training
DOL Equity in State                 Administration’s (ETA) inventory data has become significantly
Employment Security                 outdated and ETA does not maintain sufficient accountability over
Agencies’ Real Property
                                    DOL’s equity in State Employment Security Agencies’ (SESA)
and Questions
$8.2 Million of Real                real properties. We identified a 30 percent increase in DOL’s
Property Related Costs              equity over the past 8 years, as well as significant changes in the
                                    number of specific properties acquired and sold. We also iden-
                                    tified approximately $8.2 million in SESA property-related
                                    questioned costs. As a result of our findings, we made several




                                                          vi
Semiannual Report to the Congress                                                           April 1, 1997 - September 30, 1997



                                    recommendations that would strengthen ETA’s current operat-
                                    ing procedures in managing DOL’s equity in SESA real
                                    properties ..................................................................... pg. 41

                                    As part of our efforts to assist the Department in ensuring the
 OFFICE OF                          efficiency and effectiveness of its programs, we also continue to
 EVALUATIONS                        respond to requests for quick and objective reviews of specific
 AND                                functions or operations.
 INSPECTIONS
                                    During this reporting period, the OIG’s Office of Evaluations and
                                    Inspections (OEI) completed final resolution actions with respect
                                    to our review of the workers' compensation program for U.S.
                                    Postal Service employees. We had identified an estimated 680
                                    long-term disability cases which were not scheduled for rigorous
                                    attention provided under the program. Consequently, the Office
                                    of Workers' Compensation Programs (OWCP) undertook a spe-
                                    cial study of these cases, resulting in a projected $4.5 million
                                    savings over a 3-year period from 59 claimants who were iden-
                                    tified as no longer eligible for continuing FECA benefits and who
                                    were terminated from periodic rolls ............................... pg. 33




                                                          vii
Semiannual Report to the Congress                                                                       April 1, 1997 - September 30, 1997




  SELECTED STATISTICS



  Office of Audit

  Reports issued on DOL activities ...................................................................................... 153
  Total questioned costs ..........................................................................................$ 19.6 million
  Dollars resolved .....................................................................................................$ 6.1 million
    Allowed .................................................................................................... $ 3 million
    Disallowed ............................................................................................... $ 3.1 million
  Recommendations that funds be put to better use................................................. $ 11.6 million


  Office of Investigations

  Cases opened ................................................................................................................... 284
  Cases closed ..................................................................................................................... 244
  Cases referred for prosecution ........................................................................................... 159
  Cases referred for administrative/civil action ...................................................................... 288
  Indictments ......................................................................................................................... 137
  Convictions ........................................................................................................................ 124
  Debarments ......................................................................................................................... 29
  Recoveries, cost efficiencies, restitutions, fines, penalties, foreitures,
    and civil monetary actions .................................................................................$ 25.3 million




 NOTE: The Office of Investigations conducts criminal investigations of individuals which can lead to prosecutions ("convictions") by criminal
 complaints, warrants, informations, indictments, or pre-trial diversion agreements. Successful prosecutions may carry sentences such as
 fines, restitutions, forfeitures, or other monetary penalties. The Office of Investigations' monetary results also include administrative and civil
 actions which are further detailed and defined on page 76 of this report.

 A further breakdown detailing the Office of Investigations' Division of Program Fraud and Division of Labor Racketeering statistical accom-
 plishments can be found on page 74 of this report.




                                                                        1
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997




 EMPLOYMENT AND TRAINING

                                    The Department of Labor (DOL) is charged with providing em-
                                    ployment and training services for the unemployed and
                                    underemployed, employment security for workers, and for ad-
                                    ministering programs that are directed to the employment needs
                                    of U.S. workers. The Department’s Employment and Training
                                    Administration (ETA) administers a number of statutes related
                                    to this function. The system of skill training and related services
                                    is decentralized and directed toward increasing the post-pro-
                                    gram employment and earnings of economically disadvantaged
                                    persons, dislocated workers and others. This activity is accom-
                                    plished both through grants to States and through National
                                    programs. In Fiscal Year 1997, over $6 billion was appropriated
                                    for DOL’s employment and training programs.

                                    This is a critical time in DOL’s history with respect to employ-
                                    ment and training because DOL’s programs are an important
                                    factor in the implementation of the recently enacted welfare re-
                                    form. The Department’s ability to provide effective training and
                                    employment services to help individuals transition from depen-
                                    dency on public assistance to self-sufficiency will be key to the
                                    success of welfare reform. Of equal importance is the fact that
                                    with passage of GPRA, Congress and the Administration are
                                    mandating that programs be effective, have a positive impact,
                                    and produce a positive return on the taxpayers’ investment.

                                    Because of the importance of DOL’s employment and training
                                    activities, the OIG has established a goal under our 5-year GPRA
                                    Strategic Plan “to optimize the use of funds appropriated for
                                    employment, training, and welfare-to-work programs by enhanc-
                                    ing program performance and accountability.” Accordingly, the
                                    OIG will utilize its extensive, in-house experience with these pro-
                                    grams to assist the Department in meeting the challenges of this
                                    function.

                                    During this reporting period, the OIG devoted significant re-
                                    sources toward achieving our employment and training strategic
                                    goal. For example, the OIG completed audits of grants and con-
                                    tracts that identified performance problems and financial



                                                        2
Semiannual Report to the Congress                                              April 1, 1997 - September 30, 1997



                                    compliance weaknesses in key employment and training pro-
                                    grams. We also provided consultation assistance to the
                                    Department that resulted, or has the potential to result, in cost-
                                    efficiencies to the Department. Additionally, the OIG provided
                                    congressional testimony on the elements needed to ensure fis-
                                    cal and performance accountability as the programs of the
                                    Department are reformed and expanded, particularly with the
                                    implementation of welfare reform and GPRA.


                                    The Job Training Partnership Act (JTPA) is the largest training
 JOB TRAINING                       program administered by ETA. The purpose of JTPA is to pre-
 PARTNERSHIP                        pare youths and adults facing serious barriers to employment for
 ACT                                participation in the labor force, by providing them with training
                                    and other services that will result in increased employment and
                                    earnings.

                                    TITLE IV - Federally Administered Programs

                                    JTPA Title IV authorizes employment and training programs for
                                    the Job Corps, Veterans’ Employment, Native Americans, Sea-
                                    sonal Farmworkers, and other activities and programs collectively
                                    known as “National Programs.”


                                    The Job Corps program is authorized under Title IV of the Job
  JOB CORPS                         Training Partnership Act (JTPA) and is funded at over $1 billion
                                    per year. The Job Corps is a residential education and training
                                    program to assist disadvantaged youth to become more employ-
                                    able and productive citizens. Since 1964, Job Corps has served
                                    more than 1.77 million young men and women. There are cur-
                                    rently 112 Job Corps centers located throughout the country.

 Audit of the National              The OIG conducted a performance audit of the Job Corps’ plas-
 Plastering Industry’s              tering and cement masons training programs operated by the
 Joint Apprenticeship               National Plastering Industry’s Joint Apprenticeship Trust Fund
 Trust Fund                         (Trust Fund). The Trust Fund is one of nine Job Corps National
                                    Training Contractors (NTC) and receives approximately $4.7
                                    million annually to provide plastering and cement masonry train-
                                    ing as well as placement services to about 1,200 Job Corps
                                    students. We identified several areas where performance im-




                                                        3
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



                                    provements can contribute toward increasing the overall success
                                    of the Job Corps Program.

                                    Program Graduates Experience Difficulty in Maintaining
  Findings                          Employment: An analysis of the post-program employment ex-
                                    perience of former students who were initially placed in
                                    training-related employment, disclosed that a sizable number are
                                    having difficulty keeping and/or obtaining employment. The
                                    analysis, conducted an average of 14 months after the student
                                    was placed in training-related employment, was based on em-
                                    ployer confirmation data as well as State Unemployment
                                    Insurance (UI) wage data.

                                    The audit disclosed that only minimum post-placement follow-up
                                    services were provided to these former students. Given the sig-
                                    nificant amount of resources invested in the students’ Job Corps
                                    training, we recommended that additional post-placement fol-
                                    low-up services be provided to improve students’ employment
                                    experience. This includes providing students with any needed
                                    placement services for up to 1 year after the completion of their
                                    training.

                                    To conduct the analysis, the OIG randomly selected 259 of the
                                    533 training-related job placements reported by the Trust Fund
                                    during Program Year (PY) 1995 and mailed questionnaires to
                                    the employers that were listed as the initial place of employment.
                                    Of the questionnaires mailed, the OIG received 129 responses
                                    from the employers.


                                           Employment Confirmation Data on 129 Former Students
                                                 Placed in Training-Related Employment


                                                                                          8 (or 6%)
                                                        98 (or 76%)
                                                                                        Never Worked
                                                       Laid Off, Quit
                                                         or Fired
                                                                                        11 (or 9%)
                                                                                         Left For
                                                                                       Another Job

                                                                              12 (or 9%)
                                                                            Still Employed




                                                        4
Semiannual Report to the Congress                                              April 1, 1997 - September 30, 1997



                                    As demonstrated by the chart, only 12 of the former students
                                    were still employed with the initial employer. Another 11 told the
                                    initial employer that they were leaving to accept another job.
                                    The employers told us that 8 were never employed. Of the re-
                                    maining 98, 19 were laid-off, 55 had quit, or 24 were fired and
                                    had an average length of employment of only 100 days. Further,
                                    after leaving the initial employer, the majority of these former
                                    students had very low wages, as reported in State UI wage
                                    records. The State UI wage data indicate that these former stu-
                                    dents were sporadically employed or not employed at all, and
                                    some had applied for unemployment compensation. The former
                                    students listed as sporadically employed had reported wages
                                    averaging $2,400 per year, after an average of 8 months of train-
                                    ing in plastering or cement masonry, at a cost of about $17,000
                                    per student.

                                    Student Transfers: The OIG determined that students are al-
                                    lowed to transfer from the Trust Fund’s plasterers or cement
                                    masons training program to other vocational training programs
                                    without regard to the time or resources already invested. Many
                                    of these transfers occurred after the students had completed
                                    more than 6 months in the Trust Fund’s training program without
                                    completing the program. Currently, Job Corps does not have a
                                    written policy or procedures that control transfers between vo-
                                    cational training programs. The OIG believes that it would be in
                                    the students’ and Job Corps’ best interest to have procedures
                                    that control transfers to eliminate any abuses that presently ex-
                                    ist.

                                    Unacceptable Performance Levels for Two Programs: The
                                    OIG identified two programs (Harpers Ferry CM and Hawaii PL)
                                    operated by the Trust Fund that did not meet the minimum ac-
                                    ceptable performance levels during PYs 1995 and 1996. These
                                    two programs were also in the bottom quartile when ranked
                                    against all other Job Corps vocational training programs. The
                                    OIG recommended that corrective action be taken regarding
                                    these two training programs in order for them to meet accept-
                                    able performance levels.

                                    Training Slots Need to be Filled: The OIG analyzed the aver-
                                    age training class size for 9 of the 47 training programs operated
                                    by the Trust Fund during PY 1995 and determined that the train-




                                                        5
Semiannual Report to the Congress                                                April 1, 1997 - September 30, 1997



                                    ing class size for these 9 programs was 15 slots, which is 38
                                    percent below the 24 slots required by the contract. The OIG rec-
                                    ommended that the Trust Fund work with the respective centers
                                    to develop strategies for outreach and enrollment to ensure that
                                    all slots required under its contract with DOL are filled.

                                    Job Corps stated that there are certain characteristics of the
  Agency Response                   construction industry, such as the fact that employment may last
                                    only for a specified period of time, which impacts the ability of
                                    the Trust Fund to place Job Corps students in employment on a
                                    long-term basis. Consequently, it is not surprising that a majority
                                    of the students did not remain employed with the initial em-
                                    ployer beyond a 100-day average.

                                    Job Corps also stated that it is troubled by the OIG’s total reli-
                                    ance on State UI wage data to determine the employment status
                                    of 27 of the 98 former students reported in the questionnaires
                                    as having been laid off or fired, or who had quit. Job Corps
                                    contends that the possibility exists that some of these students
                                    may have been hired as “independent contractors” who do not
                                    pay Federal or State UI taxes and, therefore, State UI wage
                                    records would not reveal their employment as independent con-
                                    tractors even though they may be working full-time at their trade.
                                    However, the Internal Revenue Service and the State Employ-
                                    ment Security Agencies have established guidelines which
                                    clearly define those individuals who qualify as independent con-
                                    tractors and, in our estimation, it is unlikely that recent Job Corps
                                    graduates would meet the criteria.

                                    Despite concern with the OIG’s reliance on UI wage records to
                                    establish the employment status of a number of former students,
                                    Job Corps agreed with the OIG that every effort must be made to
                                    improve student employability and labor market attachment. In
                                    September, Job Corps established a placement follow-up work
                                    group and asked the OIG to provide consultation assistance. Job
                                    Corps stated that greater productivity has always been expected
                                    from NTCs (as compared to Job Corps’ center-operated train-
                                    ing programs), primarily because NTCs have a network of union
                                    and/or industry affiliates that support the placement process, in-
                                    creasing the likelihood that more NTC students will be placed in
                                    jobs that match their training, pay well, and last long enough for
                                    strong roots to be established in the labor market. The OIG is




                                                         6
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



                                    pleased that Job Corps recognizes that improvements are
                                    needed in this area in order to increase the value of the training
                                    to the students.

                                    Job Corps also concurred with the OIG findings and recommen-
                                    dations related to controlling and limiting student transfers. Fur-
                                    ther, Job Corps concurred with our recommendations that the
                                    Trust Fund needs to take corrective action to ensure acceptable
                                    levels of performance in the Harpers Ferry and Hawaii programs
                                    and that slots required under its contract with DOL are filled.
                                    (Report No. 18-97-033-03-370; issued September 30, 1997)

  Job Corps to                      In addition to contracting for training and related services, Job
  Implement                         Corps also contracts for management services at Job Corps
  Procedures                        centers. The OIG performed a limited scope performance audit
  Addressing                        of Johnson, Bassin & Shaw’s (JBS) contract with Job Corps to
  Deficiencies in the
                                    provide health care management and support services. JBS
  Health Care System
                                    assisted in planning, managing, and overseeing the overall health
                                    care program and in providing health care service activities, in-
                                    spections, and support systems at Job Corps centers. The audit
                                    covered the period April 15, 1992 through June 30, 1996. In
                                    addition, we audited Job Corps’ administration and oversight of
                                    its health care program. This work was performed in conjunction
                                    with a financial audit of JBS’ contract reimbursements.

                                    The audit of Job Corps’ oversight of health care facilities and
                                    services found that Job Corps did not adequately monitor the
                                    facilities and services to ensure they were in compliance with
                                    applicable standards and did not always take corrective action
                                    when JBS inspections identified inadequacies in center health
                                    care services and/or facilities. For example, JBS repeatedly
                                    identified dental exams not being completed within the required
                                    time period, a lack of timely responses for students with mental
                                    health emergencies, and infirmaries having inadequate equip-
                                    ment. The JBS Regional Office Annual Reviews (ROAR) showed:

                                    •      38 of the 65 centers (58 percent) covered by the ROAR
                                           reports for FYs 1994 - 1996 had significant noncompli-
                                           ance issues.

                                    •      26 of the 65 centers (40 percent) had “repeat findings” or
                                           issues of non-compliance in the four categories of health




                                                        7
Semiannual Report to the Congress                                              April 1, 1997 - September 30, 1997



                                           care administration (equipment, supplies and facilities;
                                           health care programs; staffing and training; and reporting
                                           and record keeping), including centers whose medical/
                                           dental facilities were deemed to be “inadequate” or “mini-
                                           mally adequate” to meet student needs.

                                    •      One center had over 50 current and repeat findings.

                                    Job Corps officials acknowledged the “repeat violations” identi-
                                    fied by JBS consultants and the lack of consistent and timely
                                    corrective measures. They stated they were not able to fund all
                                    the rehabilitation and equipment needs and upgrades requested
                                    by the centers. The officials also pointed out that at no time was
                                    a student’s health put in jeopardy. Nevertheless, they acknowl-
                                    edged that procedures are needed and will be established to
                                    ensure that: Job Corps regional managers monitor the status of
                                    corrective actions on findings identified by JBS health consult-
                                    ants’ and that particular attention be given to repeat findings;
                                    regional health consultants receive feedback on the status of their
                                    recommendations; and that feedback is received by the new
                                    contractor on these actions. (Report No. 18-97-031-03-370; is-
                                    sued September 30, 1997)

                                    The OIG also audited the $7.6 million in direct costs JBS claimed
                                    for reimbursement for the period April 15, 1992 through June 30,
                                    1996, when the JBS contract expired. The OIG questioned
                                    $20,868 of direct salaries and fringe benefits because the ex-
                                    penditures exceeded the DOL-approved budget line item amount.
                                    To accommodate the questioned costs, JBS submitted a request
                                    to Job Corps for a retroactive modification of its budget. (Report
                                    No. 18-97-030-03-370; issued September 18, 1997)

 $604,510 Questioned;               The Job Corps contracted with the Consulting and Program
 Administrative                     Management Services, Inc. (CPMS) to provide various property
 Limitations Placed on              management services in support of about 80 contractor-oper-
 Remaining Contract                 ated Job Corps Centers. For the period July 1992 through March
                                    1996, CPMS claimed over $7.1 million in reimbursements re-
                                    lated to separate contracts, which were in effect during this
                                    period. The OIG performed an audit to determine whether the
                                    costs claimed by CPMS were appropriate based on Federal
                                    regulations and the specific requirements of the contracts. The
                                    OIG questioned $604,510, the majority from questionable direct




                                                        8
Semiannual Report to the Congress                                                April 1, 1997 - September 30, 1997



                                    labor charges ($394,090) and unsupported travel and per diem
                                    costs ($153,720).

                                    The questionable labor charges occurred on a continuing basis
                                    throughout the entire audit period and included: excessive over-
                                    time compensation (including Saturday and Sunday time) for
                                    exempt, salaried personnel; excessive amounts of vacation leave
                                    for CPMS’ officers; excessive daily hours for holidays; and ex-
                                    cessive and improperly allocated compensation for absences
                                    of management personnel.

                                    The OIG questioned travel costs incurred by the CEO because
                                    there was no documentation to support the official or authorized
                                    business nature of the trips, the “allowability” of the costs claimed,
                                    or the accomplishments and/or benefits to the contract(s) objec-
                                    tives. A comparison of the labor costs recorded on the CEO’s
                                    time sheets with travel expense reports disclosed numerous in-
                                    consistencies and irregularities. The OIG also questioned costs
                                    for lunches and dinners at local restaurants, trips to Aruba and
                                    the Cayman Islands, and trips for “investment opportunities” for
                                    professional development training.

                                    CPMS did not agree with the majority of the audit findings. In
                                    February, DOL informed CPMS that its primary property man-
                                    agement contract would not be extended beyond the expiration
                                    date, and that restrictions were being placed on CPMS’ other
                                    DOL contract. (Report No. 18-97-025-03-735; issued August 14,
                                    1997)

 OIG Recommends                     While performing the financial audit of CPMS, the OIG devel-
 Opportunities For                  oped three “matters for consideration” which would improve
 Cost Avoidance to                  the efficiency of the Job Corps’ administration of certain as-
 Job Corps                          pects of its non-expendable property support contracts and,
                                    therefore, reduce the program’s administrative costs. Implemen-
                                    tation of the OIG recommendations would result in savings of up
                                    to $300,000 a year.

                                    Inventories on Non-Expendable Property: CPMS made an-
                                    nual inventory reviews of Government-owned property at 77
                                    contractor-operated Job Corps Centers (Centers). The OIG be-
                                    lieves mandatory annual inventory reviews are not cost effective
                                    and current DOL requirements should be revised to permit less
                                    frequent reviews based on a risk-based vulnerability approach.



                                                         9
Semiannual Report to the Congress                                              April 1, 1997 - September 30, 1997



                                    Contract Property Management System: The Contract Prop-
                                    erty Management System, currently centralized at CPMS, is a
                                    computerized system for controlling non-expendable, Govern-
                                    ment-owned property maintained at the Centers. The OIG made
                                    several recommendations to improve the efficiency of this sys-
                                    tem, including: 1) merging the Contract Property Management
                                    System into Center contractors’ inventory systems, and 2) adopt-
                                    ing an improved DOL centralized property management system
                                    permitting direct access by center contractors. The OIG believes
                                    these alternatives, if properly structured, should not diminish
                                    Government property control and would help achieve significant
                                    cost savings.

                                    Screening Excess Property: CPMS screened and inspected
                                    excess property at Defense Reutilization and Marketing Service
                                    (DRMS) locations even though the property had been previously
                                    inspected and “condition-coded” by both the General Services
                                    Administration and DRMS. The OIG believes this is an unnec-
                                    essary Job Corps expense and recommended it re-evaluate its
                                    process to screen and inspect excess property made available
                                    by the DRMS.

                                    Office of Job Corps officials disagreed with all three OIG recom-
                                    mendations regarding future opportunities for cost avoidance.
                                    They feel that because of annual reviews, the rate of “lost” prop-
                                    erty is very low and the costs are essential to continued property
                                    accountability; however, they also stated that the Contract Prop-
                                    erty Management System and Screening Excess Property may
                                    be considered for cost savings in the future.

                                    The OIG does not concur with either Job Corps' reasons or ratio-
                                    nale stated for their disagreement. We continue to believe that
                                    implementation of the recommendations would result in savings
                                    of up to $300,000 per year. (Report No. 18-97-029-07-735; issued
                                    September 18, 1997)

 Use of Job Corps                   The OIG completed a review of the Sierra Nevada Job Corps
 Funds to Deter Union               Center (SNJCC). The objective was to determine if the center
 Organizing                         operator, Management & Training Corporation (MTC), used con-
                                    tract funds to campaign against unionization efforts, which is a
                                    violation of provisions under the Job Training Partnership Act
                                    (JTPA). JTPA Section 143 (c)(1) specifically states: “Each re-




                                                       10
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



                                    cipient of funds under this Act shall provide to the Secretary as-
                                    surances that none of such funds will be used to assist, promote,
                                    or deter union organizing.”

                                    We concluded that MTC staff working on-site at the Job Corps'
                                    Center actively campaigned against efforts to unionize the Cen-
                                    ter. The OIG questioned costs related to the use of Job Corps'
                                    funds for anti-union training, preparing and disseminating anti-
                                    union information, and other anti-union activities. MTC asserted
                                    they had a right and obligation to conduct a campaign against
                                    unionizing the SNJCC, under the National Labor Relations Act
                                    (NLRA). They stated that the OIG and Job Corps position on the
                                    allowability of costs was in conflict with the NLRA and requested
                                    a legal review of the issues involved in the audit. MTC also stated
                                    the issues raised by our audit will have far reaching implications,
                                    not only for MTC, but for other Job Corps contractors.

                                    We do not disagree with MTC’s position on their rights under the
                                    NLRA. However, we disagree that Job Corps funds can be used
                                    to deter union organizing. We agree with MTC’s opinion that reso-
                                    lution of the legal issues would provide clearer guidelines for all
                                    parties. (Report No. 09-97-006-03-370; issued September 26, 1997)


                                    As previously reported, the OIG performed a limited scope audit
 Job Corps                          on the Medicaid reimbursement process at the Denison, Iowa,
 Consultation                       Job Corps Center, at the request of Job Corps. We found that
 Activity                           the Center contractor should not have billed Iowa Medicaid for
                                    basic medical, dental and mental health services provided to
 OIG Assists Job                    students on-site, and we recommended that Job Corps reim-
 Corps in Evaluating                burse Iowa Medicaid for the costs paid with State Medicaid funds.
 Assertion of Iowa
 Attorney General                   Subsequently, in correspondence with the Job Corps which cited
                                    the OIG limited scope audit report as support, the Iowa Attorney
                                    General took the position that Job Corps was also responsible
                                    for the costs of all off-center expanded medical services pro-
                                    vided to Job Corps participants, including costs for hospitalization
                                    and medical emergencies. Iowa demanded reimbursement of
                                    $1.3 million for these services. The Job Corps requested the
                                    OIG review the Iowa Attorney General’s position regarding the
                                    OIG’s prior audit work. We concluded, and reported to Job Corps,
                                    that certain statements from our audit report had been misinter-




                                                        11
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



                                    preted and misrepresented in supporting the assertion of the
                                    Iowa Attorney General. The OIG’s prior audit reports related only
                                    to the question who (Job Corps or Medicaid) is responsible for
                                    on-site basic health services. The Iowa Attorney General inferred
                                    that the reports also related to off-center expanded health ser-
                                    vices. (Consultation Report No. 18-97-023-03-370; issued July 24,
                                    1997)

 OIG Review Results in              ETA awarded Charlesgate Construction Company (Charlesgate)
 Reduced Contractor                 a construction contract to build a new building at the Job Corps
 Claim                              Center in Grafton, Massachusetts. Charlesgate encountered
                                    problems on the site (which it claimed were beyond its control),
                                    thus seriously affecting its ability to perform the contract in the
                                    agreed-upon time. Charlesgate filed three claims, totaling $1.7
                                    million, most of which were denied by ETA. Charlesgate ap-
                                    pealed the decisions and, in February, Charlesgate’s three claims
                                    were consolidated by the Board of Contract Appeals into one
                                    proceeding. ETA and the Solicitor of Labor jointly requested
                                    that OIG review the indirect costs portion ($924,755) of the
                                    Charlesgate claim.

                                    Our review found that the indirect costs claimed were determined
                                    by Charlesgate through use of the “Eichleay Formula,” an ac-
                                    cepted methodology for recovering unabsorbed indirect costs
                                    when construction project delays are the fault of the owner, in this
                                    case, DOL. However, for the Eichleay Formula to be an appro-
                                    priate method for recovering unabsorbed indirect costs, the
                                    contractor has an obligation to take all reasonable steps to miti-
                                    gate costs allocable to the work covered by the delay. The OIG
                                    found that: 1) Charlesgate did replace the delayed DOL work, 2)
                                    the percentage at which Charlesgate computed its lost profit was
                                    excessive, and 3) anticipated profit improperly included home
                                    office indirect costs. In addition to the primary findings, the OIG
                                    also determined that Charlesgate improperly included inappro-
                                    priate costs in its Eichleay Formula calculations. ETA used the
                                    results of the OIG’s consulting services report to negotiate and
                                    execute a Settlement Agreement, in which Charlesgate agreed
                                    to settle its $1.7 million claim against DOL for only $159,024.
                                    (Consultation Report No. 18-97-027-03-370; issued September 5,
                                    1997)




                                                        12
Semiannual Report to the Congress                                             April 1, 1997 - September 30, 1997



                                    The School-to-Work Opportunities Act of 1994 provides the op-
 SCHOOL-TO-                         portunity for States to establish School-to-Work (STW)
 WORK                               Opportunities systems. These systems are designed to assist
                                    youth in acquiring the knowledge, skills, abilities and labor mar-
                                    ket information they need to make a smooth and effective
                                    transition from school to career-oriented work, or to further edu-
                                    cation or training.

                                    STW brings together States and their partners, creating a sys-
                                    tem to prepare youth for the high wage, high skill careers of a
                                    global economy. STW is jointly administered and funded by the
                                    Federal Departments of Education (DOEd) and DOL which pro-
                                    vide funds to create comprehensive statewide STW systems.
                                    Development grants are awarded for the design of the STW sys-
                                    tem and implementation grants are awarded for the installation
                                    of the system. Federal funds are to be used as venture capital to
                                    underwrite the initial costs of planning and establishing state-
                                    wide STW systems that will be maintained with other Federal,
                                    State, and local resources.

                                    During this period, we performed an interim audit of the grants
                                    awarded to Indiana and Missouri and issued a management let-
                                    ter to the National STW Director on barriers to implementing a
                                    successful STW system.

 Audit of Indiana STW               We audited $510,914 of costs claimed by the Indiana Depart-
 Grant                              ment of Workforce Development (DWD), the State’s fiscal agent
                                    for the grant. The current grant provided funding of $5,885,556.
                                    Indiana is expected to receive over $32 million through Fiscal
                                    Year 2000 to implement a statewide STW system. Our interim
                                    audit encompassed the period February 3, 1994 through March
                                    31, 1996, and reported $34,847 in questioned costs and admin-
                                    istrative findings, including:

                                       - costs inadequately supported by source documentation,
                                       - noncompliance with Federal financial reporting requirements,
                                       - unresolved accounting weaknesses disclosed in Single
                                          Audit reports,
                                       - reported costs exceeded actual costs incurred under the
                                          grant, and
                                       - internal control weaknesses within payroll, nonpersonnel and
                                          contractual systems.




                                                       13
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



                                    The DWD officials generally concurred with our findings and the
                                    need for corrective action. (Report No. 05-97-003-03-385; issued
                                    May 9, 1997)

 Audit of Missouri                  We audited $604,830 of costs claimed by the Missouri Depart-
 STW Grant                          ment of Elementary and Secondary Education (DESE), the
                                    State’s fiscal agent for the grant. The current grant provided fund-
                                    ing of $966,664. Missouri is designed to receive funds totaling
                                    more than $28 million to implement its statewide STW system
                                    through Fiscal Year 2001.

                                    Our interim audit covered January 27, 1994 through March 31,
                                    1996. We questioned $16,821 because DESE claimed costs
                                    in excess of grant budget limitations and reported unsupported
                                    and unallowable subgrantee claims. We also noted that DESE
                                    did not have a formal system for reporting performance accom-
                                    plishments by its subgrantees. DESE officials generally con-
                                    curred with our findings and the need for corrective action. (Re-
                                    port No. 05-97-002-03-385; issued May 9, 1997)


                                    As a result of our interviews with employers during both audits,
 Barriers to Work-                  we identified three major factors that complicate successful imple-
 Based Learning                     mentation of the STW system: union shops, child labor laws,
                                    and liability insurance. We reported the barriers in a manage-
                                    ment letter to the National STW Opportunities Office. The Na-
                                    tional STW Opportunities Office was created by the Secretaries
                                    of Education and Labor to carry out this important initiative, and
                                    we believe both can be helpful in overcoming or resolving each
                                    of the stated barriers.

                                    Union Shops: Labor unions represent millions of front-line
                                    workers in both the public and private sectors. Several employ-
                                    ers have not allowed students to work in production departments
                                    represented by unions because of concerns that unions will ob-
                                    ject to nonunion employees (students) performing duties covered
                                    by union contracts. One employer stated that the union requires
                                    all production line workers to become union members, essen-
                                    tially precluding work experience positions on the production line.

                                    Child Labor Laws: Although the National STW Opportunities
                                    Office published “School-to-Work Opportunities and the Fair




                                                        14
Semiannual Report to the Congress                                             April 1, 1997 - September 30, 1997



                                    Labor Standards Act: A Guide to Work-Based Learning, Fed-
                                    eral Child Labor Laws and Minimum Wage Provisions,” a number
                                    of manufacturers still expressed concerns about compliance with
                                    child labor laws. The laws restrict youth hours, participation in
                                    various occupations, and access to and work around certain types
                                    of equipment.

                                    Liability Insurance: Liability insurance policies usually cover
                                    only a company’s employees. Under the STW system, the youth
                                    will not be considered an employee and, therefore, not covered
                                    in case of an accident. Also, the youth may not be covered un-
                                    der Government-sponsored or privately-sponsored workers’
                                    compensation programs.

                                    It appears that additional guidance is needed on the legal and
                                    practical aspects of union shop participation, the Federal child
                                    labor laws (Fair Labor Standards Act), and employer liability.
                                    Although barriers exist to successful program implementation,
                                    the National STW Opportunities Office has initiated several
                                    projects and strategies to address them. The OIG will continue
                                    to audit the development of the program. (Report No. 05-97-004-
                                    03-385; issued May 9, 1997)


                                    The One-Stop Career Center (Center) system is designed to
 ONE-STOP                           provide individuals seeking employment and training services
 CAREER                             with a single point of access to: testing, assessment, and coun-
 CENTERS                            seling; job bank and labor market information; and information
                                    on education and training programs. Beginning in Fiscal Year
                                    1994, the Department awarded competitive grants to States for
                                    planning, developing and implementing the Centers.

 Massachusetts                      The OIG performed an audit of the Massachusetts One-Stop
 One-Stop Career                    Career Center System. The audit was performed at ETA’s re-
 Center System                      quest to determine the effectiveness of one-stop implementation
                                    and accountability. Massachusetts was awarded grants in 1994
                                    and 1995 for a total of $7.9 million to design and implement its
                                    One-Stop Career Center System.

                                    We concluded that Massachusetts did not meet the goals of
                                    the One-Stop implementation grants because the system has
                                    not been implemented statewide, as planned. As of March 1997,




                                                       15
Semiannual Report to the Congress                                              April 1, 1997 - September 30, 1997



                                    only 7 of 30 planned career centers were established. In geo-
                                    graphical areas where Employment Service offices were closed
                                    as a result of one-stop career center openings, the centers did
                                    not always offer the full array of employment services to all cus-
                                    tomer groups. Furthermore, Massachusetts did not properly
                                    account for program statistics relating to the number of custom-
                                    ers and targeted population served. As a result, we were unable
                                    to compare service levels of the One-Stop Career Center Sys-
                                    tem with service levels prior to the implementation of One-Stop.
                                    (Report No. 02-97-226-03-320; issued June 11, 1997)

$2.3 Million Questioned             In November 1994, the State of Texas (Texas Workforce Com-
Due to State of Texas               mission, or TWC) received a 12-month, $6.7 million One-Stop
Failure to Provide                  grant, which was periodically modified to reflect a cumulative
Matching Funds                      award of $18,401,243, with an expiration date of December 31,
                                    1997. The OIG audited the costs TWC claimed for reimburse-
                                    ment for the period November 18, 1994 through June 30, 1996.

                                    TWC reported costs of over $4.1 million through the audited pe-
                                    riod, reported cumulative incurred costs of $8.5 million through
                                    March 31, 1997, and claimed 100 percent of this amount for re-
                                    imbursement from DOL. The special conditions of the grant
                                    award explicitly required matching funds. Additionally, the ap-
                                    proved budget for the initial 12-month grant period required the
                                    grantee to provide over $2.6 million of matching funds ($1,550,000
                                    in cash and $1,106,988 in “in-kind”). The matching share for the
                                    initial 12-month period represented 28.39 percent of the total
                                    budget (Federal plus matching). However, TWC did not report
                                    any matching costs through June 1996 and, further, did not record
                                    any matching costs in its general ledger. Therefore, the OIG ques-
                                    tioned $2.3 million. TWC did not agree with this finding,
                                    contending that the criteria listed in the DOL grant solicitation
                                    package did not explicitly require matching funds. (Report No.
                                    18-97-019-03-325; issued June 3, 1997)


                                    For almost 20 years, DOL has funded, under JTPA Title IV-D,
 OTHER                              Mainstream, Inc. (Mainstream), a “not-for-profit” corporation to
 EMPLOYMENT                         provide employment assistance to disabled workers with spe-
                                    cial needs. For the period of July 1992 through June 1996, DOL
 AND TRAINING                       granted Mainstream $1,417,062 to annually place 400 disabled
 PROGRAMS                           individuals into unsubsidized employment. For the 4-year pe-




                                                       16
Semiannual Report to the Congress                                                April 1, 1997 - September 30, 1997



                                    riod, the OIG audited Mainstream’s program performance in re-
                                    lation to its agreed-upon goals as well as its claimed costs.

 Questionable                       The performance audit disclosed serious deficiencies in
 Accomplishments                    Mainstream’s administration of its program regarding the qual-
 By Disability                      ity of training, placement services, and follow-up provided to
 Partnership Grantee                people with disabilities, the performance of Mainstream’s Project
                                    Link, and the adequacy of the grantee’s record keeping.

                                    In addition, we identified inaccuracies in the performance data
                                    reported to DOL. The grant required Mainstream to report quar-
                                    terly to DOL on its accomplishments in meeting its performance
                                    goals. This consisted primarily of reporting the number of par-
                                    ticipants placed in unsubsidized employment. The OIG found
                                    that most of the program’s performance data reported to DOL
                                    was “questionable” and that Mainstream inflated its accomplish-
                                    ments in a number of the reporting categories.

                                    ETA had not performed an on-site monitoring review of
                                    Mainstream’s program operations in many years, so we recom-
                                    mended that ETA conduct an in-depth evaluation of Mainstream’s
                                    management and its activities to improve program results. We
                                    also recommended that ETA improve its oversight and monitor-
                                    ing of Mainstream and disallow the $31,998 in questioned
                                    indirect costs.

                                    While Mainstream disagreed with the OIG findings, ETA informed
                                    OIG that the findings of its in-depth review of Mainstream’s pro-
                                    gram performance and report systems were the same as OIG’s.
                                    Recognizing the need to improve its oversight capabilities over
                                    its 10 grants specifically targeted to serve disabled individuals,
                                    ETA has strengthened its commitment to improve the effective-
                                    ness of its oversight function by assigning two full-time staff po-
                                    sitions to this activity. Additionally, the OIG has participated in a
                                    training activity ETA held to enhance its grantees’ administrative
                                    and management skills. (Report No. 18-97-024-03-370; issued
                                    August 7, 1997)




                                                        17
Semiannual Report to the Congress                                              April 1, 1997 - September 30, 1997



                         Since 1977, the Transportation Communications Union (TCU)
  OTHER                  has received a series of cost reimbursement contracts to pro-
  EMPLOYMENT             vide training at various Job Corps Centers. The Office of Cost
  AND                    Determination (OCD), which is responsible for reviewing and
  TRAINING               approving indirect cost rate proposals, has experienced consis-
  CONSULTATION           tent difficulties in obtaining acceptable proposals from TCU. A
                         prior OIG audit (Report No. 18-91-005-07-735) revealed TCU in-
  OIG-Recommended        cluded unallowable and unsupported costs in its indirect cost
  Cap on Transportation pool and understated its cost allocation bases. A subsequent
  Communications         audit (Report No. 18-94-012-07-735) reported that TCU had failed
  Union’s (TCU) Indirect to correct the internal control weaknesses identified in the prior
  Cost Rate Will Result  audit, questioned over $650,000 in salaries and related fringe
  in Cost Savings of     benefit costs improperly designated as indirect costs, and rec-
  $206,513               ommended an audited indirect cost rate of 4.88 percent.

                                    The OIG conducted a limited-scope review of TCU’s indirect cost
                                    rate proposal for Calendar Years 1993 - 1995. We determined
                                    that the indirect cost rate proposal was based on a time keep-
                                    ing system that was flawed both in design and implementation,
                                    and therefore did not accurately reflect TCU’s recoverable indi-
                                    rect costs. Based on the results of the current audit, the OIG has
                                    recommended the Director of OCD:

                                    •      cap TCU’s proposed final indirect cost rates at 4.88 per-
                                           cent for Calendar Years 1993, 1994 and 1995 (TCU’s
                                           most recent audit-recommended rate of recovery);

                                    •      continue to cap TCU’s proposed provisional and final in-
                                          direct cost rates at the 4.88 percent level until TCU has
                                          fully corrected the deficiencies disclosed by this review
                                          and earlier OIG audit reports; and

                                    •      inform TCU that, consistent with the new 48 CFR Subpart
                                           42.7 [Indirect Cost Rates], submission of subsequent in-
                                           direct cost proposals containing unallowable costs could
                                           result in the imposition of monetary penalties.

                                    If implemented by OCD, the impact of these recommendations
                                    will be a cost savings to the Department of $206,513. (Report
                                    No. 18-97-021-07-735; issued July 11, 1997)




                                                       18
Semiannual Report to the Congress                                             April 1, 1997 - September 30, 1997



                                    OIG reviews and investigations continue to reveal that JTPA pro-
 EMPLOYMENT                         grams remain vulnerable to theft and embezzlement of federal
 AND TRAINING                       funds. With Congressional and Executive pressures to increase
 INVESTIGATIONS                     funding for similar programs, the OIG continues its oversight re-
                                    sponsibilities for this program. Examples of our efforts in this
                                    area are as follows:

 Two Indicted on                    A Missouri Federal Grand Jury returned a one-count indictment
 Charges of JTPA                    charging Elloyd Gardner, the former president, and Delores
 Embezzlement                       Nelson, the former secretary of Gardner and Associates, Incor-
                                    porated (G&A), with embezzlement of employment and training
                                    funds. The indictment alleges that Gardner and Nelson diverted
                                    JTPA funds to Nelson’s personal bank account. Since the initia-
                                    tion of the OIG’s investigation, G&A has not been awarded any
                                    JTPA contracts by either the St. Louis Agency in Training and
                                    Employment or St. Louis County Department of Human Services.
                                    Recently, both defendants pled guilty to the charges of embezzle-
                                    ment and each was sentenced to 4 months in jail. U.S. v. Nelson
                                    (E.D. of Missouri)

 Chicago Training                   On May 30, 1997, the Association House of Chicago (AHC), a
 Program Agrees to                  JTPA funded organization, agreed to a False Claims Act settle-
 Civil Settlement                   ment in the amount of $62,267. An OIG investigation alleged
                                    that AHC improperly received funding from the City of Chicago
                                    Mayor’s Office of Employment and Training (MET) to provide
                                    on-the-job training (OJT) employment services. The investiga-
                                    tion alleged that from 1991 to 1993, AHC received reimburse-
                                    ments based on false statements regarding OJT placements at
                                    the Georgia Nut Company, a participating employer in the OJT
                                    program. U.S. v. Association House of Chicago (N.D. of Illinois)

                                    Quinto L. Golman, a former data input operator for the Tangipahoa
 Sentencing for Eight               Parish School System, a Louisiana Service Delivery Area (SDA),
 Defendants Guilty of               and seven other co-conspirators were sentenced for their involve-
 JTPA Fraud                         ment in a scheme in which Golman used his position to generate
                                    JTPA checks payable to his relatives or friends. The scheme
                                    resulted in a loss of over $66,700 and Golman was sentenced to
                                    13 months in prison to be followed by 36 months supervised pro-
                                    bation. He was also ordered to make restitution in the amount of
                                    $38,000. The seven others received sentences ranging from 3-
                                    5 years probation and were ordered to pay restitution of up to
                                    $4,000. U.S. v. Golman et al (E.D. of Louisiana)




                                                         19
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



 Florida Man Sentenced              In another sentencing Derrick Brown, his now defunct corpora-
 For Defrauding                     tion, his daughter, and a former State of Florida Job Service
 Targeted Jobs Tax                  employee were sentenced for committing mail fraud and mak-
 Credit Program (TJTC)              ing false statements. The three individuals and the corporation
                                    pled guilty in January 1997, to charges relating to their submis-
                                    sion of falsified TJTC vouchers for reimbursement. TJTC grants
                                    federal tax credits to companies who hire eligible individuals who
                                    would normally have difficulty finding employment. Brown was
                                    sentenced to 5 months imprisonment, followed by 3 years pro-
                                    bation. He was also ordered to pay $37,000 in restitution. His
                                    daughter received 2 months home detention, 3 years probation,
                                    and was ordered to pay $37,000 in restitution. The Florida State
                                    employee received 3 years probation. U.S. v. Brown et al (M.D. of
                                    Florida)

 Job Service Center                 Deanna Hughes, a former Lewis County Washington Job Ser-
 Employee Charged                   vice Center (JSC) clerk-typist, was charged with embezzling JTPA
 With Embezzlement                  funds. An OIG investigation alleged that Hughes entered infor-
                                    mation into the JSC accounting system and fraudulently issued
                                    checks to individuals who would cash them and return the mon-
                                    ies to Hughes. Hughes also allegedly created fraudulent vouchers
                                    which were used by Hughes’ niece to purchase groceries and
                                    then delivered to Hughes’ home. The investigation identified a
                                    weakness in the State of Washington Employment Security
                                    Department’s accounting system which allowed Hughes to use
                                    duplicate voucher numbers in her scheme. Based on the results
                                    of this investigation, the State of Washington’s Internal Audit Of-
                                    fice has conducted detailed inquiries within the JSCs to detect
                                    and prevent any similar problems. U.S. v. Hughes (W.D. of Wash-
                                    ington)

 OIG Investigation                  On August 7, 1997, a superseding indictment was returned
 Uncovers Substantial               against Dov Hikind, a New York State Assemblyman; and Paul
 Amounts of Fraud                   Chernick and Elimelech Naiman, two officials of the Council of
                                    Jewish Organizations (COJO). The defendants are accused of
                                    diverting in excess of $1.5 million in Job Training Partnership
                                    Act (JTPA) funds to their personal use or to two companies they
                                    owned and operated. From July 1989 to December 1996, COJO
                                    received in excess of $6.6 million in JTPA funding from the New
                                    York City Department of Employment. This case is part of an
                                    ongoing multi-jurisdictional investigation, with more indictments
                                    expected in the coming months. U.S. v. Hikind, et al (E.D. of New
                                    York)




                                                        20
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



 President of a Local               During this reporting period, the OIG conducted an investigation
 Union Admits to False              into a JTPA grant resulting in a False Claims Act complaint filed
 Certifications                     against Jewel Frierson, president of Local 194 of the Retail,
                                    Wholesale, and Department Store Workers Union (RWDSU) and
                                    the Director of the union’s Local Technical Training Center (LTTC).
                                    Frierson obtained a JTPA grant for LTTC to assist eligible dislo-
                                    cated workers in obtaining unsubsidized employment for
                                    Campbell’s Soup Company employees (members of RWDSU
                                    Local 194) who had lost their jobs due to the closing of one of the
                                    companies’ Chicago facilities. During the OIG investigation,
                                    Frierson admitted that the certification document, which he signed
                                    and submitted to the Department in order to obtain the JTPA
                                    grant monies, was false, and that the $37,500 in on-the-job train-
                                    ing costs had not actually been incurred. U.S. v. Frierson (N.D. of
                                    Illinois)


                                    Previously, the OIG reported the results of its financial audit of
  AUDIT                             two Defense Conversion Adjustment (DCA) Program grants
  RESOLUTION                        awarded to the Hughes Aircraft Company. DCA, authorized un-
                                    der JTPA Title III, provides grants for retraining, adjustment
                                    assistance, and employment service to eligible employees ad-
                                    versely affected by reduced military spending and closing of
                                    military facilities. The grants, totaling $16 million, were made to
                                    Hughes to provide basic readjustment and retraining services to
                                    approximately 5,000 workers permanently laid-off (dislocated)
                                    as a result of the Department of Defense canceling over 70 con-
                                    tracts with Hughes.

 Hughes Aircraft                    During the current reporting period, Hughes sent DOL a check
 Company Pays DOL                   for $556,989 to repay costs that had been questioned by the
 $556,989 as a Result               OIG and then disallowed by the Employment and Training Ad-
 of OIG Audit Findings              ministration grant officer.

                                    The repaid costs resulted primarily from OIG questioning: (1)
                                    Hughes’ subcontractors claiming excessive and untimely pen-
                                    sion plan contribution costs; (2) payments to an unauthorized
                                    contractor to perform outplacement services to individuals not
                                    enrolled in the program; and (3) services provided to nongrant-
                                    eligible employees, preaward labor-related costs, corporate
                                    business attorney fees, and insurance coverage beyond the grant
                                    period. (Report No. 18-96-016-03-340; issued July 1, 1996)




                                                        21
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



 Puerto Rico                        As previously reported, an OIG audit of the Puerto Rico Migrant
 Department of Labor                and Seasonal Farmworker Program administered by the Puerto
 Loses Migrant and                  Rico Department of Labor and Human Resources (DLHR) iden-
 Seasonal Farmworker                tified serious program performance weaknesses and questioned
 Program Grant                      $1.8 million in grant expenditures. ETA subsequently disallowed
                                    the $1.8 million. ETA also decided, instead of extending DLHR’s
                                    grant for another 2 years, to complete the grant. In September
                                    1997, another organization was designated to receive the grant
                                    award for the remainder of Program Years 1997 and 1998 (Oc-
                                    tober 1, 1997 through June 30, 1999). In order to allow a smooth
                                    transition and continuity of services to participants, ETA extended
                                    DLHR’s grant 3 months (through December 31, 1997), during
                                    which time the new grantee is preparing a Grant Funding Plan
                                    for ETA’s approval.

                                    DLHR has requested hearings before an Administrative Law
                                    Judge on both the cost disallowance and the award of the grant
                                    to another organization. (Report No. 18-96-005-03-365; issued
                                    February 27, 1996)

  ETA Disallows                     Because of continuing concerns over National Council on Aging’s
  $1,248,966 of                     (NCOA) proposed indirect cost rates, the Department requested
  Questioned Costs                  that the OIG audit NCOA’s proposed final indirect cost rates for
                                    Calendar Years 1991 - 1993. The OIG found that serious prob-
                                    lems identified in two prior OIG audit reports had not been
                                    corrected. In addition, the OIG questioned $1,115,016 of indi-
                                    rect costs paid to NCOA based on its proposed final indirect
                                    cost rates and $424,962 of direct costs. The questioned indi-
                                    rect costs resulted primarily from “repeat findings,” the most
                                    significant of which was NCOA’s continuing to charge certain
                                    salary and fringe benefit costs to its indirect cost pools rather
                                    than as direct costs to its private projects and other activities.
                                    The questioned direct costs resulted from double billing of ad-
                                    ministrative charges, improper direct charges and for other
                                    reasons.

                                    The Department’s Office of Cost Determination (OCD) and ETA
                                    have issued a joint management decision which disallowed
                                    $824,004 of indirect costs and $424,962 of direct costs. (Re-
                                    port No. 18-95-018-07-735; issued August 18, 1995)




                                                         22
Semiannual Report to the Congress                                                April 1, 1997 - September 30, 1997



 Job Corps                          The National Plastering Industry Joint Apprenticeship Trust Fund
 Contractor’s Advance               (Trust Fund) provides plastering and cement masonry appren-
 Financing Privilege Is             ticeship training at several Job Corps Centers. The OIG audited
 Terminated                         costs claimed by the Trust Fund for the period August 1993
                                    through July 1996. Because the Trust Fund drew down and re-
                                    tained substantial amounts of cash that were in excess of
                                    immediate needs, the OIG recommended that ETA terminate
                                    the Trust Fund’s advanced financing privilege and require that
                                    future contract payments be on a cash reimbursement basis. In
                                    May, the Department notified the Trust Fund that contract pay-
                                    ments made to it will only be based on DOL-reviewed and
                                    approved invoices. (Report No. 18-97-014-03-370; issued March
                                    28, 1997)

 JTPA Title IV-A, Native            The American Indian Opportunities Industrialization Center, Inc.
 Americans $32,739                  (AIOIC) is a nonprofit corporation which administers employment
 Repaid; Grantee                    and training programs for Native Americans in the Minneapolis
 Agrees to Stop                     area. For the period July 1995 through June 1996, the OIG au-
 Unnecessary Testing                dited the grants AIOIC received and questioned $32,739,
 of Participants                    primarily because of misallocated staff time and excessive build-
                                    ing depreciation. AIOIC agreed with the audit findings and repaid
                                    the questioned costs to the Department. AIOIC also agreed to
                                    stop testing JTPA participants, for which it was reimbursed $100
                                    per testing, because the local JTPA program had the capability
                                    to perform the testing at a significantly lower cost. This will result
                                    in an approximate annual savings of $27,000 to the local JTPA
                                    program, which will henceforth conduct the testing of its own par-
                                    ticipants. (Report No. 18-97-009-03-355; issued January 15, 1997)

 State of Michigan                  On August 26, 1997, DOL received a check for $1,208,378 from
 Resolved Audit                     the State of Michigan in final settlement for disallowed questioned
 Reports; Questioned                costs totaling $3,381,625. The costs were disallowed because
 Costs Recovered                    the Michigan Department of Labor did not maintain or use time
                                    distribution records to allocate salary costs between State and
                                    Federal programs and failed to maintain adequate documenta-
                                    tion of other program costs. The July 22, 1996 Settlement
                                    Agreement combines the results from three Administrative Law
                                    Judge cases involving three Single Audit Reports for the Michi-
                                    gan Department of Labor.




                                                         23
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



                                    In the March 1997 semiannual report, we stated that this audit
  UNRESOLVED                        report remains unresolved even though the report was issued in
  AUDITS OVER                       September 1992. It continues to remain unresolved 5 years
  180 DAYS                          after issuance despite our follow-up with ETA in July 1997.

  No DOL Action on                  The audit questioned $5.8 million in profits, interest income, pro-
  East Texas Council of             gram income, and expenditures. The report specifically
  Governments Audit                 questioned $4.5 million in profits earned. Even before our audit
                                    was issued, the two nonprofit subcontractors that ran the pro-
                                    gram for the ETCOG filed a lawsuit to prevent the State from
                                    recovering any of the profits and interest earned on the profits.

                                    Following a lengthy legal battle, on April 17, 1995, the Fifth Cir-
                                    cuit Court of Appeals vacated a previous District Court decision
                                    favoring the subcontractors, stating that both the State and DOL
                                    were free to pursue final agency action regarding whether the
                                    subcontractors’ costs and revenues were reasonable and
                                    necessary.

                                    However, ETA has not issued an initial determination in the 2½
                                    years since the decision of the Fifth Circuit Court of Appeals
                                    gave ETA authority to start resolution action. (Report No. 06-92-
                                    010-03-340; issued September 30, 1992)




                                                        24
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997




  WORKPLACE BENEFITS

                                    A major function of the Department is the administration of
                                    several programs designed to protect the workplace benefits of
                                    workers and retirees. These include the multi-billion dollar
                                    Unemployment Insurance Program (UI), the Employee Retire-
                                    ment Income Security Act (ERISA), and Federal disability
                                    programs such as the Federal Employees’ Compensation Act
                                    (FECA) program.

                                    Protection of workplace benefits is of critical importance
                                    because it affects the lives of millions of Americans and because
                                    it involves billions of taxpayer dollars. The OIG has established as
                                    a goal under its 5-year strategic plan, “To help workers and
                                    retirees by safeguarding workplace employment, unemploy-
                                    ment and disability benefits and enhancing DOL’s effectiveness
                                    in administering related programs.” During this reporting period,
                                    the OIG completed several important audits and investigations
                                    related to achieving this goal, including: improving the
                                    enforcement of pension reporting requirements; reducing
                                    improper billings by FECA medical examiners and fraud by
                                    claimants; reducing fraud against the UI system; and improving
                                    the management of UI operations. Our significant investigative
                                    accomplishments in the area of employee benefit plans and
                                    pensions can be found in the OIG Labor Racketeering Program
                                    section of this report.

                                    Oversight responsibility over various aspects of the Nation’s
  PENSION AND                       pension system and assets rests with three Federal agencies:
  EMPLOYEE                          the Department of Labor’s Pension and Welfare Benefits
  BENEFIT PLAN                      Administration (PWBA), the Internal Revenue Service (IRS), and
                                    the Pension Benefit Guaranty Corporation (PBGC).
  ENFORCEMENT
                                    •      PWBA is responsible for administering Title I of the
                                           Employee Retirement Income Security Act 1974 (ERISA),
                                           which governs the rights and financial security of
                                           employee benefit plan participants and beneficiaries in
                                           the nation’s private pension and welfare benefit plan
                                           system. PWBA’s responsibilities include promulgating




                                                        25
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



                                           regulations, providing interpretations of ERISA, and
                                           enforcing the provisions found in Title I.

                                    •      The IRS is responsible for enforcement of ERISA’s Title
                                           II tax-related provisions.

                                    •      PBGC is responsible for Title IV, which provides
                                           Government insurance in the event of failure of certain
                                           types of pension plans.

                                    Recently, the Secretary of Labor established the retirement
                                    security of American workers as a top priority. To meet this
                                    objective, the OIG has continued its long-standing commitment to
                                    protect workers’ retirement assets, through its audit oversight of
                                    PWBA and its investigative responsibilities for assets in pension
                                    plans jointly administered by unions and employers with union
                                    contracts.

 Employee Benefit Plan              The Employee Retirement Income Security Act of 1974 (ERISA)
 Disclosure Must Be                 established a significant number of reporting and disclosure
 Improved                           requirements to protect employee benefit plan participants and
                                    beneficiaries. The OIG conducted a performance and
                                    compliance audit of the PWBA reporting and disclosure function.

                                    OIG found that PWBA was generally enforcing ERISA reporting
                                    and disclosure requirements. However, PWBA was not
                                    adequately enforcing the reporting requirement for Direct Filing
                                    Entities (DFEs). DFEs are generally large financial institutions
                                    that hold the assets of several pension plans, either from a single
                                    employer or a group of employers. For ease and efficiency in
                                    reporting, PWBA allows these entities to file annual pension plan
                                    information directly with DOL rather than each plan filing the
                                    information through the IRS. PWBA estimates that at least $954
                                    billion of pension assets are invested in entities that may use
                                    direct filing procedures.




                                                        26
Semiannual Report to the Congress                                             April 1, 1997 - September 30, 1997



                                    The OIG found multiple deficiencies with the DFE annual
                                    reporting process:

                                           1) Information is not reported in a useful manner.

                                           2) Report information is not monitored by PWBA for
                                              completeness and accuracy.

                                           3) Report information is not available for use in
                                              PWBA’s enforcement program.

                                    The OIG also determined that PWBA was not effectively
                                    enforcing the ERISA requirement for plans to submit Summary
                                    Plan Description (SPD) and Summary of Material Modifications
                                    (SMM) information. An SPD is a summary of an employee benefit
                                    plan’s major provisions that informs participants of their rights
                                    and obligations under the plan. An SMM is a summary of any
                                    changes to information required to be in the plan description or
                                    any material modification to the plan itself.

                                    OIG’s analysis of PWBA records shows that 59 percent of the
                                    plans filing Form 5500 annual reports had not filed SPDs with
                                    DOL as required. PWBA attributes this lack of compliance to
                                    limited available resources. In addition, PWBA has given higher
                                    priority to other projects, and consequently resources have not
                                    been available to improve the DFE reporting process or for the
                                    enforcement of SPD and SMM filing requirements.

                                    The OIG audit also concluded:

                                           1) PWBA did not need SPDs or SMMs to be submitted to
                                              meet its responsibilities under ERISA.

                                           2) Public and private funds were being wasted by current
                                              ERISA requirements for SPDs and SMMs.




                                                       27
Semiannual Report to the Congress                                          April 1, 1997 - September 30, 1997



                                We recommended the Assistant Secretary for Pension and
                                Welfare Benefits:
 Recommendations 1-3:                    1) Standardize DFE filing formats using the Form 5500
 Potential Government                       framework.
 Savings: $290,000
                                         2) Incorporate DFE filings into the Form 5500 process
                                            and the ERISA Information System.

                                         3) Develop procedures to identify DFEs not filing annual
                                            reports and take appropriate action.

 Potential Government                    4) Determine if filing and storage of SPDs and SMMs
 Savings: $210,000                          can be discontinued immediately.

 Potential Private                       5) Continue efforts to amend ERISA to eliminate filing
 Savings: $2.5 Million;                     SPDs and SMMs with DOL. According to a PWBA
 150,000 Burden Hours
                                            estimate, private sector annual costs of approx-
                                            imately $2.5 million and 150,000 burden hours would
                                            be saved.

                                In response to our June 11, 1997, draft audit report, PWBA stated
                                the OIG recommendations essentially concurred with two PWBA
                                initiatives that pre-dated the OIG audit; however, PWBA did not
                                take issue with the substance of the recommendations. PWBA
                                stated that the OIG audit report provided an independent
                                confirmation that initiatives already being pursued are consistent
                                with PWBA’s statutory mission.

                                The legislative changes needed to discontinue SPD and SMM
                                filings became effective August 5, 1997, with the passage of the
                                Taxpayer Relief Act of 1997, Public Law 105-32. OIG’s
                                recommendations regarding SPDs and SMMs are now resolved
                                and closed. (Report No. 09-97-004-12-121; issued August 25, 1997)

 Pension and Welfare            PWBA is currently developing the Employee Retirement Income
 Benefits Administration        Security Act Filing and Acceptance System (EFAST) in order to
 Systems Development            streamline retirement plan reporting requirements. As part of this
 Update                         development effort, the Form 5500 series is being revised for
                                more efficient and expeditious filings.

                                In a separate project, PWBA is developing an internal
                                Enforcement Management System (EMS) to improve informa-



                                                   28
Semiannual Report to the Congress                                                April 1, 1997 - September 30, 1997



                                    tion collection and reporting on enforcement outcomes. The OIG
                                    is providing PWBA with audit assistance on these initiatives.

                                    Throughout the development of EFAST and EMS systems, the
                                    OIG has raised a series of concerns with PWBA, including:

                                          1) PWBA’s strategy for EFAST development relied on an
                                             all-or-nothing approach. PWBA recognized this high
                                             risk strategy and acted to mitigate the risk by restruc-
                                             turing the request for proposals (RFP) to include a “dual
                                             prototype” strategy.

                                          2) Because of policy issues under consideration, PWBA’s
                                             draft RFP did not include a requirement for Direct Filing
                                             Entity (DFE) processing. Subsequently, PWBA’s final
                                             RFP called for DFEs to be processed in EFAST.

                                          3) The Form 5500 revision needs to be completed and the
                                             final revision needs to be in place before the start of the
                                             EFAST development effort. PWBA has published the
                                             revised Form 5500 series in the Federal Register.

                                          4) The DOL’s Chief Information Officer should be involved
                                             in the development of both EFAST and EMS systems.

                                          5) Because EMS is a “performance” reporting system,
                                             PWBA should coordinate information collection and
                                             outcomes reporting with DOL’s Chief Information and
                                             Financial Officers to assure EMS satisfies GPRA
                                             requirements.

                                    Although the above issues with PWBA have been resolved, the
                                    OIG is currently working with PWBA to resolve issues relating to
                                    the increased use of electronic filing (E-filing) within the regulated
                                    community. E-filing is an extremely important component of
                                    EFAST, and would result in significant savings to the
                                    Government. PWBA agrees that E-filing is an important
                                    component, but rather than mandate E-filing, PWBA plans to use
                                    an incentive program to encourage E-filing. Under this incentive
                                    program, the winning EFAST vendor would receive a portion of
                                    the savings realized from increased use of E-filing. PWBA is
                                    currently pursuing a DOL Solicitor’s Office opinion on the
                                    authority required to mandate E-filing. However, PWBA believes



                                                         29
Semiannual Report to the Congress                                             April 1, 1997 - September 30, 1997



                                    that even if the authority is granted, such a requirement would
                                    place an unacceptable burden on the regulated community.
                                    (Report No. 09-97-007-12-001; issued September 30, 1997)


                                    In addition to protecting retirement security, the Department
  WORKER                            administers three major disability compensation programs under
  DISABILITY                        the Employment Standards Administration (ESA) that provide
  BENEFITS                          benefits to workers who experience work-related injuries or
                                    diseases, and survivors of employees who died from job-related
                                    injuries or diseases. The three programs include the Federal
 Department of Labor                Employees’ Compensation Act (FECA), the Longshore and
 Compensation                       Harbor Workers’ Compensation Act (LHWC), and the Coal Mine
 Programs                           Workers Act (Black Lung). The Department also administers the
                                    UI which assists workers who lose their jobs through no fault of
                                    their own.


                                    FECA is a comprehensive workers’ compensation law for
 Federal          Federal employees that is designed to provide coverage for
 Employees'       work-related injuries or deaths. Benefits are paid from the
 Compensation Act Employees’ Compensation Fund, which is administered by the
                                    Office of Workers’ Compensation Programs (OWCP) and
                                    principally funded through a chargeback to the employing
                                    agency. FECA covers about 3 million Federal employees and
                                    postal workers.

                                    During this reporting period, our office has devoted significant
                                    resources in auditing, evaluating, and investigating the FECA
                                    program. Our continuing efforts in this program are concentrated
                                    in two general areas: medical service providers who bill the
                                    Government for services that were not rendered, charge multiple
                                    times for the same procedure, bill for non-existent illnesses or
                                    injuries, or overcharge for services; and claimants who defraud
                                    the program by reporting false injuries, recover but continue
                                    claiming benefits, or do not report or underreport their outside
                                    employment income to OWCP.




                                                       30
Semiannual Report to the Congress                                                  April 1, 1997 - September 30, 1997



 Medical Providers                  The OIG conducted an audit to determine if the FECA program
 Overbill FECA Millions             had made unnecessary payments to medical providers who bill
 Each Year                          the Government for services provided to Federal employees who
                                    are injured or become ill in the workplace.

                                    Based on our sample comprised of FY 1995 bills, the OIG
                                    showed a projected $7 million loss to the program because of
                                    improper medical provider billings. This projection was based on
                                    a test of $242 million in payments (or 54 percent of total medical
                                    provider billings) made during FY 1995. The sample payments
                                    were reprocessed by a commercial firm using software designed
                                    to detect manipulation of payment codes. We identified 1,600
                                    providers who improperly billed FECA for approximately $1.4
                                    million during FY 1995 for which OWCP management is now
                                    requesting repayment. From this sample, we projected the $7
                                    million loss.

                                    We defined an improper billing as an amount flagged by the
                                    commercial firm’s software that should not have been paid. We
                                    considered only those billed amounts which the system identified
                                    as a “denied” payment. There were many reasons why the billed
                                    amounts were considered to be improper. However, 90 percent
                                    of the improperly billed amounts fell into three broad categories:

                                    •      Unbundling occurs when a provider charges a
                                          comprehensive proce-
                                          dure code as well as one
                                                                           TYPES OF PROBLEM BILLINGS
                                          or more component
                                                                                       Unbundling
                                          codes. For example, a                           43%
                                          physician bills for both
                                          fusing an ankle joint and
                                          removing the ankle joint                                Global
                                                                                                  Service
                                          lining, while the removal    Duplicate                  Period
                                          of the ankle joint lining is Procedures                  14%
                                                                          33%           Other
                                          part of the ankle joint                        10%
                                          fusion surgery.

                                    •      Duplicate procedures occur when a physician charges
                                          for the same procedure twice when it was only provided
                                          once. For example, treating a head injury twice in the same
                                          day.




                                                        31
Semiannual Report to the Congress                                                 April 1, 1997 - September 30, 1997



                                    •      Global service period occurs because the fee for most
                                           surgery includes all related services for a set of days
                                           before and after the surgery. For example, a physician
                                           billed for a back operation and billed for two follow-up
                                           consultations while the worker was in the hospital. In this
                                           case, follow-up care is considered part of the surgical
                                           package.

                                    From our sample of FY 1995 bills, our joint audit and investigative
                                    initiative also identified at least 20 providers which warrant further
                                    investigative attention. Additionally, another 12 providers
                                    identified by the audit as submitting improper billings were
                                    already under investigation by our Office of Investigations.

                                    We recommended that the Office of Workers’ Compensation
                                    Programs begin formally evaluating commercial code manipula-
                                    tion detection packages for potential procurement. We
                                    concluded that DOL can save millions of dollars each year by
                                    using a commercial firm’s system to screen for medical provider
                                    payment code manipulation in the FECA program. Furthermore,
                                    we concluded that procurement and use of a commercially
                                    available code manipulation detection product is advisable
                                    because:

                                    •      Medical providers will be placed on notice that FECA will
                                           not tolerate sloppily prepared or false billings.

                                    •      Medical providers that continue to submit improper
                                           billings can be easily identified and targeted for
                                           educational assistance, or if warranted, criminal
                                           investigation.

                                    •      Commercial firms usually have multiple physicians
                                           available and a network of board certified specialists to
                                           analyze codes and code combinations and provide
                                           explanations and support for identified problems.

                                    •      Commercial firms can develop product improvements to
                                           counter new types of abuse because they have access to
                                           information from insurance clients on newly detected
                                           abuses.




                                                         32
Semiannual Report to the Congress                                           April 1, 1997 - September 30, 1997



                                •      Commercial firms generally react quickly to changes in the
                                       codes or code combinations and set up new algorithms to
                                       evaluate the codes.

                                FECA program management were cooperative partners
                                throughout the audit. At the conclusion of fieldwork, we provided
                                them with information on the types and amounts of identified
                                improper billings. We recommended aggressive collection
                                action against 1,600 providers that our audit identified as
                                improperly billing FECA for approximately $1.4 million during
                                Fiscal Year 1995. We cannot make projections as to what
                                portion, if any, improperly billed amount was due to fraud.

                                The OWCP agreed with our recommendation to procure a
                                commercial code manipulation detection package. Although
                                they did not formally address our second recommendation,
                                pursuing the collection of $1.4 million in overbillings, FECA staff
                                advised us they are proceeding with the collection actions.
                                (Report No. 09-97-200-04-431; issued September 29, 1997)

 Follow-up on the               During this reporting period, we completed follow-up and
 Review of Workers’             resolution actions with respect to the Review of Workers’
 Compensation                   Compensation Program for U.S. Postal Service (USPS)
 Program for U.S.
 Postal Service                 Employees which we conducted jointly with the U.S. Postal
 Employees Results in           Inspection Service. Our FY 1995 report’s most significant
 $4.5 Million in                findings cited noteworthy initiatives by both USPS and OWCP
 Projected Savings              that strengthen the management of long-term disability cases,
                                addressed delays by USPS in the submission of claims to
                                OWCP, identified cases requiring further medical evaluation and
                                efforts to return claimants to employment, and indicated
                                opportunities for improved program communications between
                                the organizations. OWCP’s response to our draft report
                                concurred with our recommendations. Furthermore, since the
                                issuance of our final 1995 report, we have followed the agency’s
                                progress to ensure the full implementation of agreed upon
                                corrective actions. However, it is the responsibility of the U.S
                                Postal Inspection Service to ensure that the recommendations
                                addressed to USPS are implemented.

                                Since the issuance of our report, OWCP has initiated tracking
                                systems to monitor the submission of injury notification and claim
                                forms by all Federal employing agencies in accordance with the




                                                    33
Semiannual Report to the Congress                                                  April 1, 1997 - September 30, 1997



                                    time frames established in the regulations. To enhance inter-
                                    agency communications and ensure more effective performance
                                    of workers’ compensation program responsibilities, OWCP has
                                    revised its approach to technical assistance for employing
                                    agencies to identify and resolve agency specific problems, such
                                    as delays in claim processing or inappropriate controversion of
                                    claims.

                                    While our report noted the positive outcomes of the Periodic Roll
                                    Management and Quality Case Management initiatives, we
                                    identified an estimated 680 long-term disability cases in four
                                    FECA district offices which were not scheduled for the rigorous
                                    attention provided under these programs. In response to our
                                    recommendations, OWCP agreed to undertake a special project
                                    to examine these 680 cases and determined that 366 warranted
                                    a full assessment. The resulting reviews identified 59 claimants
                                    from various agencies who were no longer eligible for continuing
                                    FECA benefits and these claimants were terminated from the
                                    periodic rolls in chargeback years 1996 and 1997. Assuming the
                                    59 claimants whose benefits were terminated as a result of this
                                    special review are representative of all FECA claimants
                                    terminated from the rolls in 1996, one-year savings from this effort
                                    are estimated at approximately $1.3 million. Although we
                                    recognize that some claimants may have returned to work or have
                                    been terminated from the rolls in the absence of this special
                                    project, we have projected the annual savings to a 3-year period
                                    and estimate that as much as $3.8 million in future FECA costs
                                    may have been avoided as a result of this initiative. In the course
                                    of this special review, OWCP officials in the 4 districts identified
                                    wage earning capacities for an additional 25 periodic roll
                                    claimants and reduced FECA benefits. Accordingly, we did not
                                    attempt to quantify program savings resulting from these benefit
                                    reductions.

                                    Lastly, OWCP’s actions to obtain additional medical evidence
                                    and initiate efforts to return a total of 48 claimants identified during
                                    our review resulted in the termination of an additional 11
                                    claimants from the periodic rolls with an estimated 1-year savings
                                    of $234,300 and a potential projected 3-year avoidance of
                                    $702,900 in FECA costs. Wage earning capacities were found
                                    in 4 of the 48 claimants but, as above, we did not quantify the
                                    program savings associated with the benefit reductions in these




                                                         34
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



                                    cases. (Report No. 04-SPO-95-OWCP; issued May 10, 1995)

                                    At the request of OWCP, our Office of Evaluations and
  Evaluation of Early               Inspections performed an evaluation of the Early Nurse Visitation
  Nurse Visitation Pilot            Program (ENVP) piloted in the Boston Regional Office. The
  Program In Boston                 ENVP program was established to produce more timely and
                                    stable returns to work, at a lower cost to the Government, by
                                    involving nurses earlier following a work place injury. The nurse’s
                                    role includes a wide range of responsibilities with emphasis upon
                                    medical management and liaison between the claimant,
                                    employing agency representatives, physician and OWCP
                                    officials. For instance, nurses are expected to contact the treating
                                    physician to discuss the current and future medical treatment
                                    plans and continue to monitor the progress of treatment,
                                    accompanying the claimant to medical appointments when
                                    necessary.

                                    Since the major participating employing agency, USPS, did not
                                    meet requirements set under the pilot’s protocol, we could not
                                    definitively measure the impact of the program. However, the
                                    results of our evaluation support the continuing efforts by OWCP
                                    to pilot and enhance the program. For example, we identified
                                    several non-quantifiable indicators of the positive outcomes of
                                    the ENVP. Most significantly, the Boston Region’s early nurse
                                    intervention initiatives enjoyed a high level of support among all
                                    key stakeholder groups, including employing agency representa-
                                    tives, union officials, claimants, claims examiners, contract
                                    nurses and Regional management. We also found that nurses
                                    showed flexibility in managing claimants’ cases, eased the
                                    workload for OWCP claims examiners, and assisted injured
                                    employees with OWCP paperwork. Furthermore, the employing
                                    agencies that we contacted expressed the opinion that the initial
                                    increase in their chargeback medical costs for the services of the
                                    contract nurses is more than offset by later savings through
                                    decreased total compensation and medical costs.

                                    However, we also identified several opportunities for improving
                                    early nurse intervention, the overall workers’ compensation
                                    program, and future pilot projects. Our evaluation of USPS’
                                    fitness for duty examination process indicated the potential for
                                    reducing time frames for OWCP’s second medical opinions by




                                                        35
Semiannual Report to the Congress                                             April 1, 1997 - September 30, 1997



                                    approximately 28 days for claimants with identified work capacity
                                    and concurrently increasing the confidence of USPS officials in
                                    referring more routine cases to OWCP for early intervention.

                                    We also believe improvements to the ENVP program could be
                                    made if there is more active involvement by nurses in the
                                    management of the claimants’ medical care, and if resources
                                    dedicated toward bringing employees back to work are targeted
                                    toward case intervention points that yield the greatest potential
                                    impact.

                                    OWCP has initiated actions addressing our recommendations,
                                    including contracting with service organizations to arrange for
                                    more timely second medical opinions which should expedite
                                    returns to work for claimants who are determined capable to
                                    work. In addition, OWCP officials have provided further guidance
                                    to field nurses and District offices to enhance the medical
                                    management of injured workers’ cases and improve the targeting
                                    of services. (Report No. 10-OEI-97-OWCP; issued June 11, 1997)

                                    During this reporting period, the OIG’s Office of Investigations
 CLAIMANT FRAUD                     opened 104 FECA and other health-care related investigations.
                                    A total of 24 indictments, 19 convictions, and monetary
                                    accomplishments totaling $4.6 million were achieved in this
                                    area. Listed below are case summaries involving our significant
                                    accomplishments:

 Former Postal                      A joint OIG and U.S. Postal Inspection Service investigation has
 Employee Sentenced                 resulted in Salvin R. LaManna, a former postal employee, being
 For $100,000 FECA                  sentenced to 6 months home confinement, ordered to pay
 Fraud Scam                         $119,432 in restitution, ordered to pay a fine of $10,000, and
                                    given 3 years of supervised probation. LaManna’s sentence was
                                    the result of his fraudulent receipt of workers’ compensation
                                    benefits while operating a sporting goods store. The
                                    investigation revealed that LaManna had operated a sporting
                                    goods store for over 25 years while simultaneously receiving
                                    FECA benefits for a back injury he reportedly suffered in 1971.
                                    U.S. v. LaManna (W.D. of New York)

 FECA Claimant Bilks                A Federal Grand Jury in Boise, Idaho indicted Darwin Giese for
 Program Out of                     submitting false information to OWCP. While Giese worked as
 $107,000                           a crane operator for the U.S. Department of Energy’s Bonneville




                                                       36
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



                                    Power Administration, he submitted a claim for a job-related
                                    injury and began receiving workers’ compensation benefits for
                                    temporary total disability in March 1988. Investigation revealed
                                    that Giese owned and operated an automobile repair shop, and
                                    earned income from snowplowing during the winter while
                                    fraudulently receiving over $107,000 in benefits. U.S. v. Giese (D.
                                    of Idaho)

 Psychologist                       Following a 9-day trial, Viola Wiegand, a New York licensed
 Convicted For                      psychologist, was convicted of conspiracy to commit mail fraud,
 Defrauding FECA                    false statements, false claims, and using false social security
 Program                            numbers in her scheme to defraud the OWCP program and other
                                    federal and private health-related agencies. An OIG investiga-
                                    tion, conducted jointly with the OIGs at HHS and SSA, disclosed
                                    that from 1991 to 1996 Wiegand submitted fraudulent bills to
                                    OWCP for psychotherapy sessions that never took place with
                                    injured employees. Wiegand received approximately $76,000 in
                                    fraudulent payments from OWCP. In addition to her OWCP
                                    scheme, Wiegand and four others were also charged with
                                    submitting false reports and bills in order to collect no-fault auto
                                    insurance, Social Security and other private insurance benefits.
                                    Sentencing is pending. U.S. v. Wiegand et al (E.D. of New York)

 Former Veterans Affair             A former employee with the U.S. Department of Veterans Affairs
 Employee Pleads                    (VA) in Alabama, Wannell D. Jones, was ordered to pay $30,804
 Guilty To FECA Fraud               in restitution and a special assessment fine of $750 after she pled
 Charges                            guilty to a 15-count indictment charging her with making false
                                    statements to continue receiving FECA benefits. Jones received
                                    6 months home detention and 36 months probation. The
                                    investigation revealed that, from April 1992 to November 1995,
                                    Jones withheld employment information and provided false
                                    statements to the DOL to ensure continued receipt of workers’
                                    compensation benefits. During this period Jones worked as a
                                    Licensed Practical Nurse for six different employers, which
                                    resulted in her receiving unreported earnings in excess of
                                    $124,000. This was a joint investigation with the VA OIG. U.S. v.
                                    Jones (N.D. of Alabama)

 Navy Engineer Writes               Louis Francis Lab, a former electronics engineer with the
 Check For $80,000 at               Department of Navy in San Diego, California, was sentenced to
 Sentencing                         8 months incarceration for fraudulently obtaining FECA benefits.
                                    The sentencing resulted from a joint OIG and Naval Criminal




                                                        37
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



                                    Investigative Service investigation which determined that Lab,
                                    who had been receiving FECA benefits from 1976 through May
                                    1994, failed to report his employment as an Executive Director at
                                    Advantage Property Services, a mortgage service company
                                    operated by his wife. Although Lab had no direct earnings from
                                    his employment, investigative efforts produced overwhelming
                                    evidence that Lab was working and performing physical
                                    activities, including playing tennis, which were inconsistent with
                                    his reported medical restrictions. In addition to his jail term, Lab
                                    is to serve 3 years supervised probation and was ordered to pay
                                    $87,551 in restitution. U.S. v. Lab (S.D. of California)

 FECA Claimant Pleads               Alsina Mimms, a former nursing assistant at the VA Medical
 Guilty To Receiving                Center in Houston, Texas, entered a guilty plea to three counts of
 Over $76,000 in FECA               making false statements to fraudulently receive over $76,500 in
 Benefits                           FECA benefits after a joint OIG and VA investigation disclosed
                                    that she had been periodically working at numerous health care
                                    facilities in the Houston area while claiming that she was unable
                                    to perform her official duties at the Center due to a job-related
                                    injury. Mimms was sentenced to serve 6 months in prison and 6
                                    months house arrest after her release, followed by 3 years
                                    supervised probation. In addition, she was ordered to make
                                    restitution of $46,245. U.S. v. Mimms (S.D. of Texas)

 Capitol Police Officer             John Franklin Rodrigues, a former U.S. Capitol Police Officer and
 Admits to FECA Fraud               FECA recipient, pled guilty to mail fraud. Rodrigues submitted
                                    claims to receive workers’ compensation benefits while working
                                    odd jobs throughout St. Mary’s County, Maryland, and not
                                    reporting his earnings. In his plea agreement, Rodrigues
                                    admitted that he fraudulently received $15,194 in workers’
                                    compensation benefits. Sentencing is pending. U.S. v. Rodrigues
                                    (D. of Columbia)


                                    The Longshore and Harbor Workers’ Compensation Act
 Longshore Harbor                   (LHWCA) program is an entitlement program administered by
 Workers’                           the Department of Labor. This program provides benefits to
 Compensation Act                   maritime workers who are injured while working.

 Longshore Claimant                 Johnny L. Stinson, a former Newport News Shipyard employee,
 Sentenced                          after pleading guilty to mail fraud charges in connection with his




                                                        38
Semiannual Report to the Congress                                              April 1, 1997 - September 30, 1997



                                    fraudulent receipt of benefits under the LHWCA, was sentenced
                                    to 36 months incarceration and 36 months of supervised
                                    probation upon release. Stinson was also ordered to make
                                    restitution of $83,261. An investigation disclosed that Stinson
                                    operated the LDM Construction Company while allegedly totally
                                    disabled and collecting LSHW compensation benefits. U.S. v.
                                    Stinson (E.D. of Virginia)

 Longshore Claimant                 In another matter involving a former employee of the Newport
 Indicted For                       News Shipyard, Mark D. Batten, was indicted for allegedly
 Defrauding Program                 defrauding the LSHW program of over $53,000 in compensation
                                    and medical benefits for payments for two separate injuries. The
                                    investigation determined that Batten had failed to report his pre-
                                    existing back and shoulder injuries. This matter is being
                                    prosecuted by the Virginia Commonwealth Attorney’s Office.
                                    Virginia v. Batten


                                    During this reporting period, the OIG investigations involving
  UNEMPLOYMENT                      Unemployment Insurance (UI) fraud resulted in 46 indictments, 36
  INSURANCE                         convictions, and $2.1 million in monetary recoveries. The
                                    following case listings represent some of the OIG’s most
  BENEFITS                          significant cases in this area:

 FRAUD IN THE            Susan M. O’Donnell and Paul Lupo were indicted by a Plymouth
 UNEMPLOYMENT            County grand jury for theft of UI funds from the State of
 INSURANCE               Massachusetts.       O’Donnell was an adjudicator in the
 PROGRAM                 Massachusetts Department of Employment and Training
                         (MDET) Office. Over a 2-year period, O’Donnell and Lupo, a
 Massachusetts Couple friend of O’Donnell’s who was not an MDET employee, allegedly
 Indicted for $60,000 UI stole over $60,000 in UI benefit checks. O’Donnell used her
 Fraud Scheme
                         knowledge of the MDET computer system to approve UI claims
                         for seven individuals whose applications would have otherwise
                         been denied. O’Donnell allegedly changed the mailing address
                         for the UI checks to go to post office boxes under her or Lupo’s
                         control. Massachusetts v. O’Donnell

 Maryland Man Indicted              Daryl F. Parker was indicted in the Circuit Court of Montgomery
 for UI Fraud                       County, Maryland on charges resulting from his role in an alleged
                                    scheme to defraud the State of Maryland’s Department of Labor,
                                    Licensing and Regulation (DLLR) and Maryland businesses by
                                    the counterfeiting and passing of UI and payroll checks,




                                                         39
Semiannual Report to the Congress                                             April 1, 1997 - September 30, 1997



                                respectively. Parker is charged with obtaining approximately
                                $22,000 in DLLR UI benefits via nine counterfeited DLLR checks.
                                Maryland v. Parker

 Washington Man                 A report from the Washington Employment Security Department
 Guilty of Fraudulent UI        (WESD) Office of Special Investigations regarding theft of
 Check Scheme                   Federal Disaster Unemployment Assistance (DUA) benefits
                                prompted an investigation of Albert N. Phillips, Jr., a former
                                WESD data entry clerk. Phillips was found issuing DUA checks
                                to three accomplices who were not eligible for DUA payments. A
                                Federal Grand Jury for the Western District of Washington
                                charged Phillips with theft of Federal funds. Subsequently,
                                Phillips and two of his accomplices pled guilty to the charges.
                                U.S. v. Phillips (W.D. of Washington)

 Fraudulent Scheme              A 24-month incarceration sentence followed by 2 years of a
 Defrauds Michigan UI           supervised release program was handed down to Bruce Carter
 Program out of                 following his guilty plea to defraud the State of Michigan UI
 $248,000                       Program out of approximately $248,000. From July 1991 to
                                October 1993, Carter participated in a scheme in which he
                                submitted false verifications for employment and wage
                                information to the State UI Program. These false verifications
                                resulted in UI claims being approved for non-existent and non-
                                eligible employees for Carter’s defunct company. Carter
                                received a portion of the fraudulent proceeds. U.S. v. Carter (E.D.
                                of Michigan)

                                An additional area of concern for the OIG are the types of
                                schemes involving the collection of UI benefits by illegal aliens.
                                For instance, in one OIG investigation an individual taught illegal
                                aliens how to file fraudulent claims. In exchange for the facilitator’s
                                assistance in filing these claims, a fee was charged to the
                                claimant and, in some cases, the facilitator received a portion of
                                the proceeds from the UI benefit check. To date, this investigation
                                has resulted in combined declared overpayments and benefit
                                terminations in excess of $419,169. In yet another case involving
                                collection of UI benefits by illegal aliens, an OIG investigation has
                                resulted in declared overpayments and benefit terminations of
                                $450,000. The OIG is continuing its investigative efforts in this
                                area.




                                                     40
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



                                    In addition to our investigations, we also performed several audits
  AUDIT WORK IN THE                 on the unemployment insurance programs. Summaries of these
  UI PROGRAM                        audits conducted during this reporting period follow.

 $8.2 Million in Real               For the past 2 years, we have reported in our annual financial
 Property-Related                   statement audits that the ETA did not maintain sufficient
 Costs Questioned                   accountability over DOL’s equity in State Employment Security
                                    Agencies' (SESA) real properties. In an effort to correct this
                                    problem, as of September 30, 1988, ETA established an
                                    inventory, based on a prior OIG real property audit report.
                                    However, ETA’s inventory data has become significantly
                                    outdated. Because of a lack of involvement in SESA real property
                                    issues, ETA has been inconsistent in managing DOL’s equity.
                                    Consequently, States have made significant capital improve-
                                    ments to existing properties, sold or traded properties, and
                                    purchased properties with grant funds without ETA’s knowledge.
                                    Failure to adequately account for properties in which DOL has
                                    equity places ETA at risk of not being fairly compensated when
                                    the properties are sold or put to other use.

                                    We identified significant changes in the number of specific
                                    properties, total property costs, and DOL’s equity since
                                    September 30, 1988. Between September 1988 and
                                    September 1996, DOL’s equity has increased over 30 percent to
                                    $381 million and is continuing to increase on a monthly basis. We
                                    project the Department’s reversionary equity interest to grow to
                                    $409 million by FY 2000 based on properties the OIG identified
                                    as having DOL equity as of September 30, 1996. By using our
                                    summary schedules of 453 SESA properties with DOL equity,
                                    ETA has agreed to accept this inventory as its baseline to begin
                                    keeping the inventory current.

                                    ETA’s lack of involvement in SESA real property activities has
                                    also resulted in $8.2 million of SESA real property-related
                                    questioned costs.

                                    In our opinion, with the constantly changing DOL equity in current
                                    SESA properties and the rate of turnover in SESA properties,
                                    ETA’s current operating procedures are insufficient to keep the
                                    inventory reasonably current and to prevent reporting and
                                    accountability deficiencies.




                                                        41
Semiannual Report to the Congress                                                April 1, 1997 - September 30, 1997



                                    In order to restore accountability, we recommended the Assistant
                                    Secretary for Employment and Training:

                                    •      Annually post ETA inventory records to: 1) add
                                           amortization amounts reported by the States; 2) transfer
                                           equity to new property or property purchases, for which the
                                           States have requested approval; 3) eliminate properties
                                           sold, traded, or vacated; and 4) add properties or
                                           revisions identified from on-site monitoring reviews.

                                    •      After obtaining Office of Management and Budget (OMB)
                                           approval, require an annual report from the SESAs
                                           showing the status of equity in SESA real property.

                                    •      Prepare and issue a replacement policy for General
                                           Administration Letter (GAL) 5-94 entitled, “Acquisition,
                                           Use, and Disposition of SESA Real Property” (which
                                           expired at the end of 1995) to promote consistent
                                           interpretation of Federal policy.

                                    We also recommended that ETA exhaust its legal remedies to
                                    collect interest when States are not timely in remitting DOL’s
                                    share of sales proceeds from properties in which DOL has equity.
                                    Finally, we recommended that ETA fully resolve all findings in the
                                    individual State reports and reiterate to the SESAs that they must
                                    comply with OMB Circulars.

                                    In response to our recommendations, ETA agreed to: 1) annually
 Agency Response                    post the inventory records; 2) request approval for an annual
                                    report; 3) issue an administrative notice with appropriate OMB
                                    Circulars and real property directives and provide annual training
                                    to staff; and 4) resolve all State reports as quickly as possible.

                                    ETA disagrees with the OIG’s position that DOL accrues equity
                                    when States recover real property costs through depreciation.
                                    We continue to recommend that ETA track equity in such
                                    properties until the properties are disposed of. If there is no value




                                                        42
Semiannual Report to the Congress                                                April 1, 1997 - September 30, 1997



                                    at that time, equity is a moot issue. Otherwise, DOL has pro rata
                                    equity to the extent grant funds were used over time to pay for a
                                    State property. (Report No. 06-97-056-03-325; issued September
                                    30, 1997)

 OIG Questions                      At the request of the Assistant Secretary for Employment and
 $269,404 in the Virgin             Training, we performed an audit of the Virgin Islands
 Islands                            Unemployment Insurance (UI) program. The objective of the audit
 Unemployment                       was to follow up on specific concerns regarding the accounting
 Insurance Program                  and reporting of administrative funds, the status of the automation
                                    grant and the timeliness of appeal decisions at the Virgin Islands
                                    Department of Labor (VIDOL).

                                    For the period October 1, 1994 through March 31, 1996, we
                                    audited over $3.5 million covering five VIDOL UI administrative
                                    grants and an automation grant for computer software received in
                                    FY 1991. Our audit identified questioned costs of $269,404 that
                                    were unallowable or not documented.

                                    We found that financial management systems were inadequate
                                    to account for and report UI financial activities. For example, there
                                    was no system to manage cash or account for penalties and
                                    interest collected from employers for overdue unemployment
                                    taxes. We concluded that VIDOL’s financial management
                                    systems were inadequate to account for and report UI financial
                                    activities.

                                    We found that the UI automation grant for $1 million to develop and
                                    install computer software expired in September, but the software
                                    was never completely developed. Additionally, $91,275 of the
                                    grant were inappropriately used for administrative purposes.

                                    We also found that VIDOL does not issue timely decisions on UI
                                    appeal cases. The UI hearing examiner, on average, issues an
                                    appeal decision almost 9 months after an unemployed claimant
                                    files an appeal. Our audit identified that some of the longest
                                    outstanding cases are pending for over a year. Consequently,
                                    claimants are experiencing undue financial hardship.




                                                        43
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



                                    UI Financial Management Systems: Based on our audit
  Recommendations                   results and conclusions, we questioned $178,129 of administra-
                                    tive costs. We recommended that the Assistant Secretary for
                                    Employment and Training Administration disallow the $178,129
                                    of questioned costs and ensure that VIDOL implement: 1) written
                                    accounting procedures for the VIDOL accounting system; 2) a
                                    double-entry accounting system to ensure that financial
                                    transactions are valid and accurate; 3) a system to properly
                                    maintain cash balances; and 4) a system to account for activities
                                    of the penalty and interest fund.

                                    Automation Grant: We recommended that the Assistant
                                    Secretary for Employment and Training Administration: 1) collect
                                    $91,275 from VIDOL, and 2) require VIDOL to establish an ADP
                                    cost allocation plan.

                                    Timeliness of Appeal Decisions: We recommended that the
                                    Assistant Secretary for Employment and Training place VIDOL
                                    on notice that funds may be withheld if they fail to comply with
                                    appeal standards.

                                    Generally, VIDOL agreed with our recommendations. However,
                                    they disagreed with $119,568 of the administrative costs
                                    questioned. (Report No. 02-97-220-03-315; issued September 26,
                                    1997)

 Limited Scope Audit                The OIG conducted a limited scope audit of selected procedures
 of Maryland                        relating to the State of Maryland, Department of Labor Licensing
 Unemployment                       and Regulation (DLLR), Division of Unemployment Insurance
 Insurance Program                  (UI). Our objective was to review the indirect cost allocation
                                    process, acquisition and disposal of UI property, plant and
                                    equipment, and the FY 1993 Unemployment Insurance
                                    Automation Support Account (UIASA) grant funds.

                                    Our audit questioned administrative indirect costs of $1 million for
                                    FY 1996 and recommended recovery of FY 1993 UIASA grant
                                    funds of $310,330. We also recommended that the Assistant
                                    Secretary for Employment and Training Administration:

                                    •        ensure Maryland maintains an accurate accounting of
                                            administrative indirect costs and proper allocation of
                                            indirect costs to the Division of UI, and restore and carry




                                                        44
Semiannual Report to the Congress                                             April 1, 1997 - September 30, 1997



                                          over into FY 1997 the $1 million in questioned indirect
                                          overhead costs;

                                    •      ensure Maryland performs a physical inventory at all UI
                                          locations and reconcile this inventory to the Federal
                                          Accounting Reporting System (FARS), require the
                                          accurate and timely recording of equipment in the
                                          inventory accounting system, and ensure that UI
                                          equipment is disposed or excessed in accordance with
                                          inventory control procedures;

                                    •     recover the drawn down but unspent portion of UIASA
                                          grant funds totaling $310,330; and

                                    •     ensure Maryland obtains a printout of all equipment
                                          purchased after June 30, 1995, which falls above the
                                          capitalization threshold established for sensitive and
                                          nonsensitive equipment.

                                    DLLR concurred with all but one recommendation and
                                    immediately implemented corrective action. DLLR did not
                                    concur with the recommendation to obtain a printout of
                                    equipment purchased after June 30, 1995. This will be
                                    addressed in the ETA formal resolution process. (Report No. 03-
                                    057-03-315 ; issued September 30, 1997)




                                                      45
Semiannual Report to the Congress                                              April 1, 1997 - September 30, 1997




 OIG LABOR RACKETEERING PROGRAM


  Combating                         The OIG is unique in that it is mandated by Congress to carry out
  Labor Racketeering in             a criminal enforcement program to combat organized crime in-
  the Workplace                     fluence and labor racketeering in the workplace. Simply, labor
                                    racketeering is the use of union or benefit plan assets or power
                                    for personal benefit. The underlying concept is that a union (or a
                                    benefit plan) is organized for the benefit of its members, not its
                                    leaders. When racketeers take over, that relationship is inverted
                                    with the leadership reaping benefits by exploiting the members.
                                    Therefore, as a part of the OIG’s 5-year Strategic Plan, the OIG
                                    has established a specific goal to identify and reduce labor rack-
                                    eteering and corruption in employee benefit plans,
                                    labor-management relations, and internal union affairs.

  Investigative Priorities          The objectives under this goal are to:

                                    •      Conduct investigations of labor racketeering activities of
                                           pension and employee welfare benefit plan officials, plan
                                           administrators, and service providers.

                                    •      Conduct industry probes into Organized Crime’s domi-
                                           nation or influence over unions and employers operating
                                           in those industries.

                                    •      Conduct investigations of union corruption, including the
                                           use of all available enforcement tools to remove organized
                                           crime and to restore democratic procedures in unions.

                                    The accomplishments achieved during this reporting period dem-
                                    onstrate a sharpened focus on our priority work.

  Evolving Nature of                While labor racketeering has traditionally involved the domina-
  Racketeering                      tion of labor unions by organized crime, in recent years, a second
                                    generation of sophisticated racketeers (including accountants,
                                    attorneys, fund managers, and plan administrators) has emerged,
                                    transforming the nature of labor racketeering. These new rack-




                                                       46
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



                                    eteers use the pen and the computer rather than the baseball bat
                                    and gun as their weapons. Using inflated appraisals, phony as-
                                    sets, self-dealing, and a myriad of sophisticated schemes, these
                                    professional criminals ruthlessly loot pension and welfare funds
                                    — union and non-union alike. The OIG now investigates not only
                                    sweetheart contracts and extortion for labor peace, but much more
                                    sophisticated financial, “white collar” crimes as well.

                                    The influence of traditional and non-traditional organized crime
  INDUSTRY                          figures in the workplace continues to have an adverse impact on
  PROBES                            the economy, resulting in reduced competitiveness in industries,
                                    and creating additional costs for American workers, businesses,
                                    and consumers. The strategy developed by the OIG to combat
                                    this influence has been to conduct “industry probes.” During these
                                    probes, all the segments of a particular industry are examined in
                                    order to expose the corrupt relationships that form the core of
                                    the criminal enterprise. It is our opinion that this strategy will
                                    have long-term impact by addressing the underlying causal fac-
                                    tors of the criminal activity within the industry, thereby restoring
                                    stability and competition.

                                    We have conducted large-scale regional industry probes in the
                                    garment, newspaper and magazine publishing, painting, and
                                    gambling industries. As an example of the effectiveness of this
                                    strategy, our probe into the New York City painting industry ex-
                                    posed collusion between painting contractors, union officials, and
                                    organized crime. Through a pattern of bribery, kickbacks, and
                                    extortion during an 18-month period, the mob was responsible
                                    for adding a tax of more than 10% to painting contracts (totaling
                                    $40 million) which were awarded by the local government.


                                    The Labor Racketeering Program is continuing its emphasis on
  CIVIL RICO                        the utilization of the Racketeer Influenced and Corrupt
  ACTIONS                           Organizations (RICO) statute to address labor racketeering
                                    problems. Under the Act, the Department of Justice (DOJ) can
                                    consider past and present LR cases and convictions as
                                    “predicate acts” in order to establish a pattern of racketeering
                                    within the union. Moreover, the RICO Act allows the Government
                                    to seek court-appointed trusteeship of the union with appointed
                                    monitors who are responsible for removing organized criminal
                                    influence from the union. After a monitor is appointed, OIG




                                                        47
Semiannual Report to the Congress                                                 April 1, 1997 - September 30, 1997



                                    Special Agents work closely with them to investigate and remove
                                    organized crime’s influence in the union.

                                    This strategy has shown some impressive results, particularly in
                                    the unions identified by the President’s Commission on Orga-
                                    nized Crime (PCOC). In 1986, the PCOC issued a report on the
                                    influence of organized crime on labor unions. This report identi-
                                    fied four unions that were particularly influenced by organized
                                    crime corruption: the International Brotherhood of Teamsters, the
                                    Laborers’ International Union of North America, the Hotel Em-
                                    ployees and Restaurant Employees International Union, and the
                                    International Longshoremen’s Association. Currently, three of
                                    the four international unions identified in that report have agreed
                                    to remove corruption from their ranks.

                                    Since 1986, the OIG’s Labor Racketeering program has devoted
                                    over 35% of its investigative resources exclusively to combating
                                    corruption in the four international unions identified by the PCOC.
                                    During this period, OIG investigations resulted in 1,712 criminal
                                    indictments and 1,350 convictions. Moreover, in 1989, the De-
                                    partment of Justice entered into a consent decree with the
                                    International Brotherhood of Teamsters (IBT). LR continues to
                                    cooperate with the monitor for the IBT, as well as the IBT’s own
                                    ethical practices committee, to address corruption within the
                                    union. In March 1995, the Department of Justice entered into a
                                    consent decree with the Laborers’ International Union of North
                                    America (LIUNA). Later, in January 1996, the LIUNA agreed to
                                    hold its first direct election of international officers by the union’s
                                    membership. In September 1995, the Hotel Employees and
                                    Restaurant Employees International Union (HEREIU) entered into
                                    an agreement with the Government. During this reporting pe-
                                    riod, the Labor Racketeering Program has achieved some
                                    significant results with the HEREIU and its affiliated local unions.

                                    The cases that follow serve to highlight the OIG’s continuing com-
                                    mitment toward this effort.

  OIG Removes                       IBT Local Union 282 was placed under Civil Rico Trusteeship in
  Teamsters with                    1995. During this reporting period, James Caccavano, the IBT
  Ties to the Mob                   shop steward for Local Union 282, was removed from his posi-
                                    tion for committing acts of corruption. The OIG investigation found,
                                    and it was alleged in court, that Caccavano is an associate of




                                                         48
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



                                    the Gambino La Cosa Nostra Crime Family. Caccavano’s uncle,
                                    Patty Caccavano, similarly was removed from his on-site stew-
                                    ard job for aiding and abetting Sammy (“The Bull”) Gravano,
                                    former Gambino crime family Underboss, and Ed (“Cousin Ed”)
                                    Garafalo, a Gambino soldier, in controlling and dominating the
                                    business affairs, operations, and appointments of the local.

                                    In addition, John Dadabo, Sr., IBT steward for Local Union 282,
                                    with Felix Industries, was removed from his administrative position
                                    by the Court-appointed Corruption Officer. Dadabo was judged
                                    to have committed acts of corruption, as defined in the Consent
                                    Judgment filed with the U.S. District Court. Dadabo is also an
                                    associate of the Gambino La Cosa Nostra Crime Family.

                                    A fourth individual, IBT steward for Local Union 282, Michael
                                    Gebbia was also removed from his administrative position by
                                    the Court-appointed Corruption Officer, for acts of corruption and
                                    for being an associate of the Gambino crime family. The Court-
                                    appointed monitor also removed a fifth individual, Paul Pederson,
                                    a Local 282 member and shop steward, from his administrative
                                    position for falsifying shop steward report submissions to the
                                    union.

 Chicago Laborers’                  On June 16, 1997, the Laborers International Union of North
 District Council                   America (LIUNA), placed the Chicago Laborers District Council
 Placed Under RICO                  under Trusteeship. The International Union alleged that the Dis-
 Trusteeship                        trict Council is involved in organized corruption and financial
                                    malpractice. Hearings are currently pending with respect to these
                                    corruption issues.

 Extortion Practices                In an investigation into racketeering in the International Union of
 Found in Florida                   Operating Engineers (IUOE) in South Florida, Dennis Walton,
 Union                              former Business Manager of IUOE Local 675; Joseph Gagne,
                                    current Business Manager and Vice-President; along with Busi-
                                    ness Agent & Treasurer of Local 675, Roy Savigliano, were
                                    indicted on RICO and extortion charges. The charges included
                                    causing union members to be demoted or fired from operating
                                    engineer jobs, denial of work referrals through the union hiring
                                    hall, and the use of IUOE to discipline, fine, suspend, and expel
                                    union members.




                                                        49
Semiannual Report to the Congress                                              April 1, 1997 - September 30, 1997



                                    On May 22, 1997, two members of the United Food and Com-
  INTERNAL                          mercial Workers (UFCW) District Union Local One in Utica, New
  UNION                             York were indicted on charges of embezzlement. Former Local
  AFFAIRS                           One president Joseph C. Talarico, and current administrative Ex-
                                    ecutive Vice President, Samuel J. Talarico, Jr., were charged
  International Food                with multiple instances of embezzlement from Local One in 1992.
  Workers Union                     Joseph C. Talarico is now the Secretary Treasurer of the Inter-
  Official Indicted for             national UFCW Union based in Washington, D.C.
  Embezzlement
                                    The defendants allegedly embezzled UFCW Local One funds by
                                    causing the union to pay various contractors for construction work
                                    on their personal residences. These contractors submitted
                                    fraudulent bills to Local One which included substantial charges
                                    for work performed for the personal benefit of both Talaricos.
                                    According to the indictment, Joseph C. Talarico embezzled ap-
                                    proximately $140,000 from UFCW Local One in this manner
                                    during the last half of 1992. Additionally, Samuel J. Talarico, Jr.
                                    embezzled approximately $25,000 from the union during the
                                    same time period.

                                    In addition, the principal of a landscaping company and the owner
                                    of an electrical construction company have pled guilty to charges
                                    relating to billing Local One for work performed at the residences
                                    of the Talaricos.

                                    If convicted on the 5 counts charged, Joseph C. Talarico could
                                    be sentenced to a maximum of 25 years in prison and $1.25
                                    million in fines. Samuel J. Talarico, Jr. in turn faces up to 30
                                    years in jail and fines of up to $1.5 million, if convicted. These
                                    union embezzlement charges resulted from a 2-year investiga-
                                    tion conducted by the OIG, the Office of Labor Management
                                    Standards, the Federal Bureau of Investigation, the Internal Rev-
                                    enue Service’s Criminal Investigation Division, and the
                                    Department of Housing and Urban Development’s Office of In-
                                    spector General. U.S. v. Talarico (N.D. of New York)


                                    As stated in the Workplace Benefits Section, the OIG also con-
 EMPLOYEE                           ducts investigations into criminal violations of the Employee
 BENEFITS AND                       Retirement Income Security Act (ERISA), and issues of corrup-
 PENSION PLANS                      tion within union benefit and pension plans.




                                                        50
Semiannual Report to the Congress                                           April 1, 1997 - September 30, 1997



                                The OIG is the investigating unit within DOL for labor racketeer-
                                ing and organized crime matters, and subsequently, the OIG often
                                coordinates with PWBA on issues relating to employee benefit
                                plans. Within the employee benefits and pension plan fraud arena,
                                the OIG has focused on concerns with service providers. The
                                OIG estimates that there are over 3,000 pension plans jointly ad-
                                ministered by union and management trustees. The assets of
                                these plans total more than $200 billion. Because of the size of
                                these plan assets, they offer inviting targets to unscrupulous indi-
                                viduals who offer services to the plan administrators, including
                                accountants, attorneys, and investment advisors.

                                Most recently, in April 1997, the Department of Justice (DOJ)
                                announced the completion of a nation-wide initiative examining
                                abuses of pension plan assets. The OIG has been an integral
                                part of this task force on pension plan abuses. Some of the OIG
                                task force work includes:

                                •      Of the 72 cases involved in the task force initiative, the
                                       OIG investigated 18.

                                •      The total loss to the pension plans amounted to $20 mil-
                                       lion.

                                •      OIG cases resulted in ordered restitutions of $10.6 mil-
                                       lion.

                                Six OIG cases that greatly contributed to the Attorney General’s
                                initiative follow.

 Individuals Convicted          A major case in the Attorney General Initiative involved an attor-
 in $10 Million New             ney for the Teamster’s Local 875 employee benefit plan in New
 York Teamsters                 York with over $30 million in plan assets. In this case, a partner
 Pension Fund Heist             in the investment firm that handled the investment of the plan’s
                                assets, engaged in a lucrative scheme to temporarily divert pen-
                                sion assets to high risk, off-shore investments.

                                Sanford Pollack, an attorney for the Fund, pled guilty to charges
                                of inducing the pension fund to invest $9.3 million in overseas
                                debentures, which resulted in a $9.15 million loss to the pension
                                fund. Following the guilty plea, Pollack was sentenced to 71
                                months incarceration and was also ordered to pay $9.15 million
                                in restitution to IBT Local 875 Pension Fund.



                                                    51
Semiannual Report to the Congress                                              April 1, 1997 - September 30, 1997



                                    Glenn P. Pelligren, a Louisiana securities dealer, and another
                                    defendant in this case, also pled guilty to charges of embezzling
                                    over $400,000 from the Local 875 pension plan. Also charged
                                    and convicted at trial was Albert DeAngelis, a former official of
                                    Local 875 and a trustee of the pension fund, to 35 years incar-
                                    ceration, on a 2 count indictment of conspiracy to receive
                                    kickbacks and receiving kickbacks in relation to the Local 875
                                    Pension Fund. DeAngelis is also a reputed member of the
                                    Columbo organized crime family.

                                    A final defendant, Burton R. Horowitz, legal counsel to the pen-
                                    sion fund, has been charged for accepting kickbacks in this
                                    scheme. U.S. v. Pollack (E.D. of New York)

 Employer Sentenced                 Another major case in the Attorney General’s initiative involved
 for Embezzlement                   an individual named Arthur Grodd, who pled guilty to charges of
 from Roofers Union                 embezzlement from the pension and retirement funds of Local
 Pension Fund                       Union 33, United Union of Roofers, Waterproofers and Allied
                                    Workers (Roofers Union), and Local 248, of the United Union of
                                    Roofers, Waterproofers and Allied Workers. Three of the roof-
                                    ing subcontractors who allegedly conspired with Grodd were also
                                    charged for their part in the scheme. Grodd was sentenced to
                                    serve 1 year in prison, and ordered to pay $1.5 million in restitu-
                                    tion. In addition, Grodd was sentenced to serve 1 year of
                                    community confinement, and 1 year of community service.

                                    The OIG investigation disclosed that over a 10-year period, Grodd
                                    defrauded union members out of their retirement benefits by: fail-
                                    ing to make contributions, under-reporting hours of union
                                    members, and embezzling from the union’s pension and retire-
                                    ment plans.

                                    The investigation also established that on three separate occa-
                                    sions in 1995, Grodd sought to bribe the Business Manager of
                                    Local 248, in order to influence him to disregard his duties as an
                                    officer of the local union representing his company. The investi-
                                    gation also revealed that Grodd engaged in four separate
                                    conspiracies with subcontractors to defraud the Internal Revenue
                                    Service by under-reporting more than $1.6 million, and to avoid
                                    paying pension and other ERISA benefits to the employees of
                                    those subcontractors.




                                                       52
Semiannual Report to the Congress                                                April 1, 1997 - September 30, 1997



                                    Charged along with Grodd for conspiracy and with filing false tax
                                    returns were roofing contractors: Francis X. Sartain, John S.
                                    Ponte, and Timothy J. Daly. Ponte and Daly have pled guilty to
                                    the charges and received sentences of probation, supervised
                                    release, and each were ordered to pay a fine of $2,000. This
                                    investigation was conducted jointly with the Criminal Investiga-
                                    tive Division of the Internal Revenue Service. U.S. v. Grodd (District
                                    of Massachusetts)

 Developer Charged in               Michael P. Rosen, a real estate developer in Rohnert Park, Cali-
 Investment Scheme                  fornia, devised a $6.5 million scheme to deceive investors
                                    through the use of false promissory notes. In addition, Mr. Rosen
                                    stole $250,000 from the Frozen Fresh Foods Money Purchase
                                    Pension and Profit Sharing Plan.

                                    Rosen was charged in a criminal information indictment with theft
                                    from an employee benefit plan and mail fraud. Rosen was also
                                    charged with lying on his 1994 Federal tax return by failing to
                                    report more than $1 million, in fraudulently obtained assets.

                                    Rosen pled guilty to theft from an employee benefit plan, making
                                    a false tax return, and mail fraud. This investigation was con-
                                    ducted jointly with the Criminal Investigation Division of the IRS,
                                    the FBI, the California Department of Corporations, the Rohnert
                                    Park Department of Public Safety, and the County District
                                    Attorney’s Office. U.S. v. Rosen (N. D. of California)

 New York City                      Stuart Somerstein and his wife, Mariana, were convicted on
 Caterers Convicted                 charges of conspiracy, mail fraud, and making false statements
 for Defrauding Hotel               in a scheme to defraud the Hotel Employees and Restaurant
 Union Pension Plan                 Employees (HERE) Union Local 100 pension plan. Local 100 is
                                    headquartered in New York City and has approximately 6,000
                                    workers.

                                    The OIG investigation discovered that the Somersteins who
                                    owned a catering company, were misrepresenting the hours that
                                    their employees worked, and, thus, the Somersteins were con-
                                    tributing less than they were supposed to on behalf of their
                                    employees. In addition, the investigation also revealed that Stuart
                                    Somerstein had embezzled over $150,000 from the catering
                                    company’s pension fund. This case was conducted jointly with
                                    PWBA, and the Postal Inspection Service. U.S. v. Somerstein
                                    (E.D. of New York)




                                                         53
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



                                    The following two cases highlight the OIG’s efforts in other em-
                                    ployee benefit plan investigations that were not part of the DOJ
                                    Attorney General’s pension initiative.

 California                         George Michael Shipsey, a former Santa Rosa, California real
 Businessman                        estate developer/contractor, was convicted on charges of em-
 Convicted for Pension              bezzlement from an employee benefit plan and money laundering.
 Embezzlement                       Shipsey was charged with fraudulently obtaining loans from four
                                    union pension plans in the construction of the $19.4 million
                                    Stonefield condominium complex in Santa Rosa. He charged
                                    the Stonefield project for the work done on his personal resi-
                                    dence by submitting false records for loan proceeds, over-billing
                                    and double-billing work performed at Stonefield. He also de-
                                    manded kickbacks of funds from contractors. Shipsey embezzled
                                    $700,000 from the four pension funds. U.S. v. Shipsey (N.D. of
                                    California)

                                    A federal grand jury in Pittsburgh returned a 91-count indictment
                                    against Frank V. Carlow, a Uniontown, Pennsylvania, business-
                                    man for tax evasion, mail fraud, pension fraud, and obstruction
                                    of justice.

 Pennsylvania Man                   From the years 1990 to 1995, Carlow owned and controlled sev-
 Indicted on Pension                eral coal mining and demolition companies. Carlow is charged
 Fraud Charges                      with conspiracy to under-report federal employment taxes and
                                    coal excise taxes. The amount of evaded taxes is approximately
                                    $10 million. A portion of these unpaid taxes was used to fund
                                    Carlow’s personal lifestyle, such as the building and maintenance
                                    of his home in Uniontown, Pennsylvania. Because Carlow em-
                                    ployed approximately 400 coal miners, these tax fraud schemes
                                    created an adverse impact on the miners, their pensions, and
                                    their health and social security benefits.

                                    To conceal the evasion of employment taxes, Carlow did not file
                                    Forms W-2 and W-3 with the Social Security Administration.
                                    Carlow was also charged with fraudulently under-reporting pay-
                                    rolls to the State Workers’ Insurance Fund in order to obtain lower
                                    premium payments.

                                    Carlow was also charged with fraudulently under-reporting hours
                                    worked to the United Mine Workers of America Health and Wel-
                                    fare Fund. By under-reporting the hours worked, Carlow




                                                        54
Semiannual Report to the Congress                                                April 1, 1997 - September 30, 1997



                                    fraudulently underpaid his contributions to the miners’ health and
                                    welfare fund. In addition, Carlow is charged with providing false
                                    records to the United Mine Workers of America, Local #5
                                    (UMWA), in order to conceal his failure to pay medical bills in-
                                    curred by his employees and payable by Carlow. Finally, under
                                    the obstruction of justice count, Carlow was charged with provid-
                                    ing false information to a federal district court judge relating to a
                                    lawsuit by the UMWA to recover amounts of unpaid medical bills.

                                    This case was conducted jointly with the Criminal Investigation
                                    Division of the Internal Revenue Service, the Federal Bureau of
                                    Investigation, PW BA, the United States Customs Service. U.S.
                                    v. Carlow (W.D. of Pennsylvania)




                                                        55
Semiannual Report to the Congress                                              April 1, 1997 - September 30, 1997




 WORKPLACE STANDARDS

                                    The Department’s Employment Standards Administration (ESA)
                                    is charged with administering and enforcing a number of stat-
                                    utes related to Federal labor standards. Workplace standards
                                    cover a wide range of employment issues, including: minimum
                                    wages, prevailing wages for contractors and subcontractors for
                                    Federal projects, child labor, overtime, family and medical leave,
                                    and other laws and regulations governing employment standards
                                    and practices.

                                    To help the Department ensure the protection of these standards,
                                    the OIG has established a goal for our 5-year GPRA Strategic
                                    Plan “to optimize the use of funds appropriated for workplace
                                    safety, health, and standards programs by enhancing program
                                    performance and accountability.” Listed below are OIG activi-
                                    ties completed during this reporting period that contribute toward
                                    achieving this important goal.

                                    Within ESA, the Wage and Hour Division (WHD) is responsible
 WAGE AND                           for improving and protecting the wages and working conditions
 HOUR                               of workers in the private and local government sectors. The WHD
                                    is also responsible for determining the prevailing wage and fringe
                                    benefit rates for particular geographic areas, as required by the
                                    Davis-Bacon Act.


                                    The Davis-Bacon Act requires that each contractor and subcon-
 DAVIS-BACON                        tractor involved in construction, alteration or repair of Federal
                                    property pay its employees no less than “locally prevailing” wages
                                    and fringe benefits. Consequently, WHD establishes prevailing
                                    rates through data voluntarily provided by employers and third
                                    parties, including union and trade associations.

 Inaccurate Data Were               As reported in our prior report, in response to a congressional
 Frequently Used in                 request, the OIG conducted an audit to assess the accuracy of
 Wage Determinations                wage and fringe benefit data used by the Department in prevail-
 Made Under the                     ing wage surveys. Although the OIG did not find evidence of
 Davis-Bacon Act                    fraud or deliberate misreporting of wage data in our sample, we
                                    determined that inaccurate data were frequently used in Davis-



                                                       56
Semiannual Report to the Congress                                           April 1, 1997 - September 30, 1997



                                Bacon wage determinations. Accordingly, we recommended the
                                wage survey process be changed to provide for independent
                                selection of contractors, as well as on-site data collection. We
                                concluded that changes are critical to ensuring the data used to
                                establish prevailing wages on Federal construction projects are
                                valid and representative.

                                On July 30, 1997, the Inspector General testified before a joint
                                hearing of two congressional subcommittees, the House Sub-
                                committee on Oversight and Investigations and the House Sub-
                                committee on Workforce Protections, Committee on Education
                                and the Workforce. The Inspector General reviewed the audit
                                report findings and recommendations and discussed actions that
                                Wage and Hour was taking on the recommendations. The Bu-
                                reau of Labor Statistics (BLS) and WHD also testified at the hear-
                                ing.

                                BLS testified that it is exploring alternatives on general wage
                                and benefit data gathering within its Occupational Employment
                                Statistics and National Compensation Survey programs. WHD
                                reaffirmed the Administration’s support for Davis-Bacon and its
                                underlying principles, but recognized that changes may be
                                needed in the wage determination process.

                                In response to our audit, during this period, WHD contracted with
                                a CPA firm to perform on-site verification of a 10 percent sample
                                of WD-10s prior to survey decisions being published. As part of
                                its reengineering effort, WHD is working with BLS to test the fea-
                                sibility of obtaining and publishing fringe benefit information for
                                specific construction occupations.


                                Our efforts in this area continue with the investigation of matters
  DAVIS-BACON                   related to Davis-Bacon Act violations.
  FRAUD
                                In the Northern District of California, Virgilio G. Talao, and Maria
  California                    Talao were indicted and charged with conspiracy, making false
  Construction Official         statements, and violations of the Copeland Anti-Kickback Act.
  Indicted for                  The Talaos’ company, San Luis Gonzaga Construction, Inc., is a
  Davis-Bacon Act               government contractor that has two federally funded public works
  Fraud                         contracts. The Talaos allegedly engaged in a conspiracy to de-
                                fraud their employees by paying them less than the mandated




                                                    57
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



                                    prevailing wage under the Davis-Bacon Act. Certified payroll
                                    records represented that each employee was paid at the rate of
                                    $21.86 per hour, when they were actually paid only between $10
                                    and $13 per hour and their work hours were shortened for each
                                    pay period. Virgilio Talao was also charged with witness tam-
                                    pering for attempting to persuade Lita Ferrer, a bookkeeper, with
                                    the intent to delay and prevent her testimony to the grand jury.
                                    U.S. v. Talao (N.D. of California)

 Davis-Bacon                        Cary Fabiani, a contractor, pled guilty to perjury as a result of
 Contractor Pleads                  concealing his ownership and control of a roofing company in
 Guilty to Perjury                  proceedings before the National Labor Relations Board. He lied
                                    under oath that he was unemployed and claimed to have given
                                    up his ownership in the roofing company. Fabiani’s roofing com-
                                    pany, in direct violation of the Davis-Bacon Act, underpaid his
                                    employees in wages and benefits and demanded kickbacks from
                                    his employees to guarantee their place on his payroll. In all, 54
                                    employees of Fabiani’s company were deprived of over
                                    $166,000 in wages and benefits. U.S. v. Fabiani (N.D. California)


                                    The Department’s 1997 Appropriations contained a request for
  FLSA                              the Inspector General to: 1) examine how the WHD selects em-
  ENFORCEMENT                       ployers for investigations (particularly under the Fair Labor Stan-
                                    dards Act); and 2) determine how decisions are made concern-
 WHD’s Selection of                 ing the amount of time and resources devoted to an individual
 Employers for                      investigation.
 Investigations and
 Allocation of
 Resources to                       As a result of our audit, we concluded that: 1) WHD’s field staff
 Individual                         consistently follow established policies and procedures to se-
 Investigations                     lect employers to investigate and determine the amount of time
                                    and resources to devote to an investigation; 2) WHD’s policies
                                    and procedures adequately safeguard the investigation process
                                    and legitimately use the Department’s investigative authority; 3)
                                    WHD staff do not believe they are subjected to inappropriate
                                    influence during the performance of their official duties; and 4)
                                    the incident prompting this audit was not representative of WHD’s
                                    use of its investigative authority, but was an isolated incident.
                                    (Report No. 17-97-004-04-420; issued April 3, 1997)




                                                        58
Semiannual Report to the Congress                                                April 1, 1997 - September 30, 1997




 DEPARTMENTAL MANAGEMENT

                                    The OIG is firmly committed toward helping improve DOL pro-
                                    grams and operations and ensure they are administered in a
                                    cost-effective manner. We are also concerned with ensuring that
                                    those who work for DOL, perform services, or participate in its
                                    programs, do so with the highest integrity. This commitment is
                                    reflected in our 5-year Strategic Plan designed “to improve the
                                    effectiveness, efficiency, and management of DOL agencies,
                                    programs, and operations.”

                                    The Strategic Plan’s overarching goal complements the OIG’s
                                    four underlying strategic goals, which focus on affecting improve-
                                    ments in specific programs of the Department and which provide
                                    a framework for audit and investigative activities. The nature of
                                    this departmental management goal is broader and, therefore,
                                    our strategies to achieve it are directed largely towards the sub-
                                    stantial financial management and performance audit activities
                                    under the Chief Financial Officers (CFO) Act. These results are
                                    reported every year in our spring Semiannual report. Addition-
                                    ally, in the near future, we will also report on activities related to
                                    the implementation of the GPRA, which became effective Octo-
                                    ber 1997. Through investigative efforts, the OIG assisted the
                                    Department in its efforts to ensure the integrity and ethical stan-
                                    dards of DOL employees. Examples of work completed during
                                    this period follow.

 Greater Information                The OIG conducted an audit of the Department’s efforts to col-
 Sharing In DOL Can                 lect, process, and report information about Federal contractors
 Result In Cost                     and subcontractors. The purpose of the audit was to identify op-
 Savings and Reduce                 portunities to streamline operations and identify areas of potential
 the Public’s Reporting
 Burden                             cost savings for the Department.

                                    For the past 5 years, the Department has purchased Federal
                                    contractor information databases from two different sources.
                                    Under the Federal Contractor Program, Veterans’ Employment
                                    and Training Service (VETS) purchases the Commerce Busi-
                                    ness Daily (CBD) to collect Federal contract award information
                                    data in order to carry out the agency’s reporting responsibilities.
                                    The Employment Standards Administration’s Office of Federal




                                                         59
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



                                    Contract Compliance Programs (OFCCP) uses the Federal Pro-
                                    curement Data System (FPDS) in order to establish contractor
                                    coverage for enforcement reviews.

                                    Our audit determined that the CBD does not provide the type of
                                    reliable data needed by VETS. For example, it contains several
                                    deficiencies, including: the lack of information identifying where
                                    the contract work will be performed; inclusion of data on compa-
                                    nies whose Federal contracts have expired; and the duplication
                                    of company names. On the other hand, we found that the FPDS
                                    is a more useful tool for identifying Federal contractors because
                                    it ensures the accurate identification of contractors, specifies
                                    place of contract performance, and provides an estimated con-
                                    tract completion date. Like the CBD, the FPDS is available upon
                                    request monthly from the General Services Administration.

                                    We concluded that because both agencies need to collect simi-
                                    lar types of data, only one source is needed to serve the
                                    Department in fulfilling its mandates. By designating the FPDS
                                    as the primary source of Federal contractor information, and shar-
                                    ing information, the Department can achieve cost savings.

                                    We recommended that VETS, through the Department’s Chief
  Recommendations                   Information Officer, collect valid and reliable information on Fed-
                                    eral contractors through information sharing with other agencies
                                    within the Department. Though VETS agreed that the FPDS is
                                    far more complete, it will continue to use the CBD for at least
                                    another year and incorporate the FPDS into its system. Since
                                    October 1, 1992, the CBD has announced only those contracts
                                    of $25,000 or more, and by October 1, 1999, only contracts of
                                    $100,000 or more will be announced.

                                    Under VETS’ Federal Contractor Program, Federal contractors
                                    must report annually the number of special disabled veterans
                                    (as defined under 41 CFR Ch. 61) and Vietnam-era veterans
                                    they employ. The report must include job categories, hiring loca-
                                    tions, and the number of new employees hired. Similarly, the
                                    Equal Employment Opportunity Commission (EEOC) requires
                                    Federal contractors to report the same type of information. The
                                    OIG believes the Department will reduce the reporting burden on
                                    employers and reduce the cost of these collection programs if
                                    the VETS’ and EEOC data collection efforts are consolidated.




                                                        60
Semiannual Report to the Congress                                               April 1, 1997 - September 30, 1997



                                    Following discussions, the EEOC agreed with the OIG that it
                                    would be more efficient to combine the two separate Federal
                                    Government data collection programs.

                                    Specifically, EEOC’s EEO-1 requires reporting from a company
                                    or any of its establishments that have: 1) 50 or more employees;
                                    2) is either a prime Government contractor or first-tier subcon-
                                    tractor; and 3) has a contract, subcontract, or purchase order
                                    amounting to $50,000 or more (or serves as a depositor of Gov-
                                    ernment funds in any amount or is a financial institution which is
                                    an issuing and paying agent for U.S. Savings Bonds and Sav-
                                    ings Notes). In contrast, the VETS-100 requires reporting from
                                    both Federal contractors and subcontractors with no limitations
                                    on the number of employees. EEOC believes that the contrac-
                                    tors they currently survey (greater than $50,000 and greater than
                                    50 employees) account for the bulk of Federal contractor em-
                                    ployment and hiring.

                                    We recommended that the Assistant Secretary for VETS reduce
                                    the public reporting burden on employers by: 1) establishing a
                                    partnership with EEOC to revise the form to collect necessary
                                    information on employment and hiring of veterans; and 2) pro-
                                    viding to Congress with a list of legislative changes needed to
                                    allow VETS to consolidate its data collection efforts with EEOC.
                                    (Report No. 17-97-005-02-210; issued April 25,1997)


                                    The OIG’s Office of Investigation is charged with the responsibil-
 EMPLOYEE                           ity for conducting investigations into possible criminal activities
 INTEGRITY                          within the Department’s programs as well as by the employees
                                    of the Department. The OIG believes that the prosecution of in-
 AND ETHICS
                                    dividuals who have violated the high standards that all Federal
                                    employees are measured against will have the long-term impact
                                    of promoting integrity in the Federal workforce. During this re-
                                    porting period, a former Occupational Safety and Health
                                    Specialist pled guilty toone count of theft of government property
                                    after being charged with making false statement and perjury. Our
                                    investigation discovered that William Marzeski made false state-
                                    ments regarding his leave status and claimed to be incapacitated
                                    by sickness from performing his official duties when in fact he as
                                    self-employed as an insurance solicitor. He is scheduled to be
                                    sentenced in October. U.S. v. Marzeski (N.D. of New York)




                                                        61
Semiannual Report to the Congress              April 1, 1997 - September 30, 1997




                                    APPENDIX




                                         62
Semiannual Report to the Congress                                                                   April 1, 1997 - September 30, 1997




REPORTING REQUIREMENTS
Requirement Under the Inspector General Act of 1978

Section 4(a)(2) - Review of Legislation and Regulation ........................................................ iv-vii

Section 5(a)(1) - Significant Problems, Abuses, and Deficiencies .......................................... ALL

Section 5(a)(2) - Recommendations With Respect to Significant Problems,
 Abuses, and Deficiencies .................................................................................................... ALL

Section 5(a)(4) - Matters Referred to Prosecutive Authorities .................................................... 1

Section 5(a)(5) and Section 6(b)(2) - Summary of Instances Where
 Information Was Refused ................................................................................................... None

Section 5(a)(6) - List of Audit Reports ....................................................................................... 70

Section 5(a)(8) - Statistical Tables on Management Decisions on
 Questioned Costs................................................................................................................... 65

Section 5(a)(9) - Statistical Tables on Management Decisions on
 Recommendations That Funds Be Put to Better Use .............................................................. 66

Section 5(a)(10) - Summary of Each Audit Report Over 6 Months Old for
 Which No Management Decision Has Been Made ................................................................. 67

Section 5(a)(11) - Description and Explanation for Any Significant
 Revised Management Decision ......................................................................................... None

Section 5(a)(12) - Information on Any Significant Management Decisions with
 which the Inspector General Disagrees .............................................................................. None

Senate Report No. 96-829
Resolution of Audits .................................................................................................................. 21

Note: This table cross-references the reporting requirements prescribed by the Inspector General Act of 1978, as amended,
and Senate Report No. 96-829 (Supplemental 1980 Appropriations and Rescissions Bill) to the specific pages where they are
addressed. The amount of "delinquent debts" owed to the Department can be found in the annual Consolidated Financial
Statement Audit.




                                                                   63
Semiannual Report to the Congress                                                                           April 1, 1997 - September 30, 1997



EXPLANATION OF AUDIT SCHEDULES
Questioned Costs ................................................................................................................................ 65

This schedule shows the extent to which DOL management has taken steps, during the 6-month reporting
period, to resolve the costs questioned as having been improperly expended. Audit resolution occurs
when management either agrees with the auditor’s finding and disallows those costs that were ques-
tioned, or management decides that the expenditure should be allowed. (This schedule is required by
Section 5(a)(8) of the Inspector General Act, as amended.)

Disallowed Costs ................................................................................................................................. 65

This schedule presents the activity for costs that have been disallowed during the 6-month period. This
schedule is included in the OIG Semiannual Report to demonstrate the flow of information to the Secretary’s
Semiannual Management Report, which is issued by the Secretary as required by Section 5(b)(2) of the
Inspector General Act, as amended.

Recommendations that Funds be Put to Better Use (Agreed & Implemented) ............................ 66

These schedules depict the activity during the 6-month reporting period for those funds that were recom-
mended by the auditor to be put to better use. These schedules are included in the OIG Semiannual
Report to demonstrate the flow of information to the Secretary’s Semiannual Management Report, which
is issued by the Secretary as required by Section 5(b)(3) of the Inspector General Act, as amended.

Unresolved Audits Over 6 Months .................................................................................................... 67

This schedule presents a summary of all audit reports that continue to remain unresolved for more than 6
months. For these reports, a management decision is still outstanding. (This schedule is required by
Section 5(a)(10) of the Inspector General Act, as amended.)

Final Audit Reports Issued by the OIG .............................................................................................. 70

This schedule is a listing, subdivided according to subject matter, of all audit reports that were issued by
the OIG during the 6-month reporting period, as required by Section 5(a)(6) of the Inspector General Act,
as amended. This listing also provides for each audit report, where applicable, the total dollar value of
questioned costs and the total dollar value of recommendations that funds be put to better use.

Final Single Audit Reports .................................................................................................................. 72

This schedule is a listing of audit reports that were issued during the 6-month reporting period as required
by the Single Audit Act of 1984, whereby Federal awards administered by non-federal entities are audited.
This listing also provides for each audit report, where applicable, the total dollar value of questioned costs
and the total dollar value of recommendations that funds be put to better use.
Note: The schedule that lists the significant audit recommendations which have not been resolved for over 1 year and on which corrective action
has not been completed is reported in the Secretary's Semiannual Management Report.


                                                                        64
Semiannual Report to the Congress                                                            April 1, 1997 - September 30, 1997



                                             QUESTIONED COSTS*
                                                                           Number of         Total
                                                                           Audit             Questioned Costs
                                                                           Reports1          ($ million)

                   Management decisions not made from                            167                  26.3
                   prior reporting period
                   Issued during the period                                      153                  19.6
                   Total reports needing management                              320                  45.9
                   decisions
                   Amounts management disallowed
                   during this period                                            N/A                  3.1
                   Amounts management allowed during
                   this period                                                   N/A                    3
                   Total management decisions made
                   during this period                                            159                  6.1
                   Management decisions not made at the                          161
                   end of this period**                                                               39.8
               1
                  This number overstates the number of audits with questioned costs because it includes audit reports
               with non-monetary recommendations and no recommendations.
               * Differences between the beginning balance of this schedule and the ending balance of the previous
               Semiannual report results from adjustments during the period.
               ** Program agencies have 180 days to issue a final management decision. This number includes audits
               where final decisions have not been made, as well as unresolved audits over 6 months.


                                             DISALLOWED COSTS
                                                                          Number of          Total
                                                                          Audit              Disallowed Costs
                                                                          Reports1           ($ million)

                   Management decisions awaiting final action                   216                   44.3
                   from prior reporting period
                   Questioned costs disallowed during the                       158                    3.1
                   reporting period
                   Total management decisions awaiting                          375                   47.4
                   final action
                      Settlement agreements obtained during                     N/A                     0
                        the period
                      Cash recovered during the period                          N/A                    5.3
                       Disallowed costs written off during the
                        period                                                  N/A                    9.3
                   Final action on management decisions
                   during the period                                            159                   14.6
                   Management decisions awaiting final action                   216                   32.8
                   at the end of this period
               1
                   This number includes audit reports with non-monetary recommendations and disallowed costs.



                                                                   65
Semiannual Report to the Congress                                     April 1, 1997 - September 30, 1997




                    RECOMMENDATIONS THAT FUNDS BE PUT
                         TO BETTER USE (AGREED)
                                                          Number of   Recommenda-
                                                          Audit       tions that Funds
                                                                      be Put to Better
                                                          Reports     Use ($ millions)
                Management decisions not made from              6            62.6
                prior reporting period
                Issued during the period                        5            11.6
                Total reports needing management                11           74.2
                decisions
                Value of recommendations agreed to by           1
                management during this period                                .77
                Value of recommendations withdrawn
                during this period                              1            .047
                Management decisions not made at the            10
                end of this period                                           73.4


                    RECOMMENDATIONS THAT FUNDS BE PUT
                       TO BETTER USE (IMPLEMENTED)
                                                          Number of   Recommenda-
                                                          Audit       tions that Funds
                                                                      be Put to Better
                                                          Reports     Use ($ millions)

                Value of recommendations awaiting final         1            7.9
                action from prior reporting period
                Value of recommendations agreed to by
                management during the current report-           1            .77
                ing period
                Total reports awaiting                          2            8.7
                implementation
                Value of recommendations
                 implemented during the period                  1            .77
                Value of recommendations awaiting final                      7.9
                action at the end of this period                1




                                                     66
Semiannual Report to the Congress                                                           April 1, 1997 - September 30, 1997




                        UNRESOLVED AUDITS OVER 6 MONTHS
                                       April 1, 1997 - September 30, 1997
       Date            Audit                                                                  No. of   Questioned
Agency Program         Issued        Report Number      Name of Audit/Auditee                 Rec.     Costs


Under Investigation or Litigation:

ETA      JTPA          14-SEP-94     02-94-263-03-340   OJT BROKER                            1        1,181,720
ETA      OJC           10-SEP-96     18-96-024-03-370   NATIONAL PLASTERING INDUSTRY          2          145,344
ETA      OJC           28-MAR-97     18-97-014-03-370   NATIONAL PLASTERING INDUSTRY         12          859,115

Awaiting Resolution:

ETA      ADMIN         28-MAR-97     04-97-014-03-001   AUDIT OF HOMELESS GRANTS AT THE
                                                        SE TENN PIC 17                       12          509,662
ETA      ADMIN         31-MAR-97     04-97-015-03-001   AUDIT OF HOMELESS GRANTS KNOXV 17     5           47,055
ETA      ADMIN         25-AUG-92     12-92-022-03-001   ETA FY 91 FINANCIAL STATEMENTS8       2                0
ETA      ADMIN         30-SEP-93     12-93-001-03-001   FY 92 ETA FINANCIAL SCHEDULE 8        7                0
ETA      UIS           09-MAY-96     17-96-004-03-315   ALLEGATION OF WRONGDOING 3            2           65,906
ETA      SESA          17-JAN-96     06-96-001-03-325   PROPOSED FY96 RENTAL RATES 3          4          194,815
ETA      SESA          21-MAR-97     06-97-010-03-325   DOL EQUITY IN SESA REAL PROP 17       1           79,346
ETA      SESA          27-MAR-97     06-97-019-03-325   DOL EQUITY IN SESA REAL PROP 17       4          940,465
ETA      SESA          28-MAR-97     06-97-025-03-325   DOL EQUITY IN SESA REAL PROP 17       4          281,260
ETA      JTPA          20-FEB-97     02-96-258-03-340   COMPARATIVE ANALYSIS OF JTPA 2        2                0
ETA      JTPA          28-FEB-95     04-95-013-03-340   AUDIT OF GA DEPT OF LABOR 18          3                0
ETA      JTPA          28-SEP-95     04-95-041-03-340   METRA NASHVILLE, TN 3                 4          299,771
ETA      JTPA          23-AUG-96     04-96-028-03-340   NATL BUSINESS INSTITUTE3              1           82,792
ETA      JTPA          30-SEP-96     04-96-029-03-340   AUDIT OF CONVERSION GRANTS18          2                0
ETA      JTPA          13-SEP-96     04-96-030-03-340   GA DEPT OF TECH AND ADULT2            3          409,512
ETA      JTPA          30-SEP-96     04-96-031-03-340   NATL BUSINESS INST, HEARTLAND18       1           36,268
ETA      JTPA          26-FEB-96     05-96-001-03-340   CITY OF CHICAGO JTPA-OJT3             3          679,773
ETA      JTPA          25-SEP-92     06-92-010-03-340   EAST TEXAS COUNCIL OF GOVT6          13        5,780.925
ETA      JTPA          22-MAY-96     18-96-012-03-340   OIC10                                 1           98,688
ETA      JTPA          08-JAN-97     18-97-007-03-340   ACADEMY FOR EDUCATIONAL DEV12         1          180,162
ETA      DINAP         07-JUN-96     06-96-239-03-355   BLACKFEET TRIBE 7                     9           77,562
ETA      DINAP         20-DEC-96     06-97-210-03-355   CHEROKEE NATION2                      8                0
ETA      DINAP         06-MAR-97     06-97-223-03-355   STANDING ROCK SIOUX TRIBE3            3                0
ETA      DINAP         07-MAR-97     06-97-224-03-355   STANDING ROCK SIOUX TRIBE3            1                0
ETA      DINAP         22-JUN-96     09-96-551-03-355   TOHONO O’DHAM NATION2                 2            1,530
ETA      DINAP         06-SEP-96     09-96-555-03-355   SHOSHONE-BANNOCK TRIBES3              2                0
ETA      DINAP         27-SEP-96     09-96-564-03-355   CALIFORNIA INDIAN MANP CON3           1           10,108
ETA      DINAP         28-AUG-96     18-96-021-03-355   NATIVE AMER EDUCATIONAL10             5           97,074
ETA      DINAP         05-SEP-96     18-96-022-03-355   CALIFORNIA INDIAN MANP CON6          13          161,195
ETA      YFC           11-FEB-97     18-97-013-03-356   CITY OF LOS ANGELES COMM11           11          629,726
ETA      DOWP          11-FEB-97     03-97-009-03-360   NATL COUNCIL OF SENIOR CITIZENS3      2                0
ETA      DOWP          19-MAR-97     03-97-011-03-360   NATL COUNCIL OF SENIOR CITIZENS3      1                0
ETA      DOWP          30-SEP-96     18-96-028-03-360   NATIONAL CAUCUS AND CENTER12         10          117,824
ETA      DSFP          30-AUG-96     06-96-128-03-365   HOME EDUCATION LIVELIHOOD3            1                0
ETA      DSFP          31-MAR-95     18-95-013-03-365   MISSISSIPPI DELTA COUNCIL14           3           33,837
ETA      OJC           02-APR-96     02-96-208-03-370   PUERTO RICO VOLUNTEER YOUTH1         21          219,435
ETA      OJC           02-APR-96     02-96-209-03-370   PUERTO RICO VOLUNTEER YOUTH 1        13            1,716
ETA      OJC           23-MAY-96     02-96-248-03-370   PUERTO RICO VOLUNTEER YOUTH 1         6                0
ETA      OJC           23-MAY-96     02-96-249-03-370   PUERTO RICO VOLUNTEER YOUTH 1         6                0
ETA      OJC           19-AUG-96     12-96-004-03-370   JOB CORPS COMBINING SCHED 9           3                0
ETA      OJC           10-SEP-96     18-96-023-03-370   DAU, WALKER AND ASSOCIATES 6          5          101,468




                                                              67
Semiannual Report to the Congress                                                      April 1, 1997 - September 30, 1997




                     UNRESOLVED AUDITS OVER 6 MONTHS
                                    April 1, 1997 - September 30, 1997
       Date        Audit                                                                No. of   Questioned
Agency Program     Issued       Report Number      Name of Audit/Auditee                Rec.     Costs


 ETA     STW        03-SEP-96   05-96-003-03-385   SCHOOL-TO-WORK OPPORTUNITIES3        13         135,298
 ETA     STW        13-JUN-96   05-96-114-03-385   FOX CITIES CHAMBER FOUNDATION 3       6               0
 ETA     STW        12-JUL-96   18-96-015-03-385   CAPITAL AREA TRAINING FOUND 6         7         632,460
 ETA     STW        30-SEP-96   18-96-025-03-385   TEXAS COUNCIL ON WORKFORCE 3          4         249,514
 ETA     STW        27-SEP-96   18-96-027-03-385   TULARE COUNTY OFFICE OF EDUC 3        4               0
 ETA     STW        08-JAN-97   18-97-008-03-385   MISSISSIPPI DEPT OF EDUCATION3        1          19,168
 ESA     WHD        10-MAR-97   04-97-013-04-420   INACCURATE DATA FREQUENTLY USE6       3               0
 ESA     WHD        27-MAR-97   04-97-016-04-420   AUDIT WAGE&HOUR DIV18                 3               0
 OASAM   ADMIN      30-SEP-93   12-93-008-07-001   FY92 CONSOLIDATED FINANCIAL8          1               0
 OASAM   ADMIN      02-SEP-94   12-94-012-07-001   DOL CONSOLIDATED FINANCIAL3           2               0
 OASAM   ADMIN      15-JUN-95   12-95-004-07-001   FY94 DOL CONSOL FINANCIAL3            1               0
 OASAM   ADMIN      06-MAR-97   17-97-001-07-001   AUDIT OF THE DEPT SAFETY &HEALTH3     1               0
 OASAM   COMP       30-SEP-93   12-93-011-07-710   FY92 WORKING CAPITAL FUND9            1               0
 OASAM   OPGM       30-SEP-91   18-91-035-07-735   OIC OF AMERICA DIRECT&INDIRECT11      2          83,764
 OASAM   OPGM       09-SEP-93   18-93-011-07-735   INTERNAT’‘L MASONRY INSTITUTE12       1          72,926
 OASAM   OPGM       04-NOV-94   18-95-001-07-735   HOMEBUILDERS INSTITUTE12              1         628,158
 OASAM   OPGM       04-NOV-94   18-95-002-07-735   HOMEBUILDERS INSTITUTE12              2         748,379
 OASAM   OPGM       04-NOV-94   18-95-003-07-735   HOMEBUILDERS CRAFT SKILLS12           7         353,479
 OASAM   OPGM       20-JUL-95   18-95-014-07-735   CENTRAL VALLEY OPPOR CEN12           12         215,005
 OASAM   OPGM       20-SEP-95   18-95-025-07-735   ASOCIACION NACIONAL PRO12             6          76,274
 OASAM   OPGM       12-APR-96   18-96-006-07-735   EVKO PRODUCTIONS, INC.12              5         520,938
 OASAM   OPGM       20-NOV-96   18-97-002-07-735   CALVILLO AND ASSOCIATES11             9         233,946
 OASAM   OPGM       11-FEB-97   18-97-012-07-735   RES-CARE, INC.12                      3         215,116
 OASAM   OPGM       28-MAR-97   18-97-015-07-735   CALVILLO AND ASSOCIATES12             2         126,679
 OSHA    ADMIN      29-SEP-92   05-92-014-10-001   FY91 OSHA FINANCIAL STAT9             2               0
 OSHA    ADMIN      17-JAN-95   05-95-004-10-101   OSHA FY93 INTERNAL CONTROL9           1               0
 OSHA    OSHAG      06-DEC-96   18-97-005-10-101   MERIDIAN RESEARCH, INC.16             2           7,386
 OSHA    OSHAG      08-JAN-97   18-97-006-10-001   EASTERN RESEARCH GROUP16              4          32,247
 OSHA    EN/PRG     31-MAR-97   05-97-107-10-105   OSHA SECTION 11(C) DISCRIMIN3         9               0
 PWBA    ENFORC     30-SEP-96   09-96-005-12-121   FULL SCOPE AUDIT OF EMPL BEN3         1               0
 PWBA    ENFORC     04-MAR-97   09-97-002-12-121   PWBA EMPLOYEE CONTRIBUTION3           1               0
 CFO     ADMIN      01-MAY-96   12-96-007-13-001   FY95 DOL CONSOLIDATED FINAN3         10               0
 CFO     ADMIN      28-FEB-97   12-97-005-13-001   FY96DOL CONSOLIDATED FINAN3           6               0
 MULTI   ALLDOL     01-APR-96   02-96-210-50-598   DEPT OF LABOR AND HUMAN1             39         287,065
 MULTI   ALLDOL     01-APR-96   02-96-211-50-598   DEPT OF LABOR AND HUMAN1             28          15,943
 MULTI   ALLDOL     01-APR-96   02-96-212-50-598   DEPT OF LABOR AND HUMAN1             29          60,680
 MULTI   ALLDOL     01-OCT-96   02-96-214-50-598   STATE OF RHODE ISLAND2               41          10,487
 MULTI   ALLDOL     01-OCT-96   02-96-215-50-598   STATE OF RHODE ISLAND2               47          29,618
 MULTI   ALLDOL     10-DEC-96   02-97-210-50-598   STATE OF NEW HAMPSHIRE1               6          13,231
 MULTI   ALLDOL     14-MAR-96   03-96-008-50-598   STATE OF DELAWARE4                    2               0
 MULTI   ALLDOL     13-DEC-96   03-97-002-50-598   STATE OF WEST VIRGINIA FY955          2               0
 MULTI   ALLDOL     13-FEB-97   03-97-004-50-598   COMMONWEALTH OF PENN3                 6         140,486
 MULTI   ALLDOL     20-MAR-97   03-97-006-50-598   DC DEPT OF EMPLOYMENT SERV2          10          11,796
 MULTI   ALLDOL     21-MAR-97   03-97-007-50-598   COMMONWEALTH OF VIRGINIA3             5         460,737
 MULTI   ALLDOL     30-APR-96   04-96-004-50-598   STATE OF KENTUCKY3                    4               0
 MULTI   ALLDOL     18-JUL-96   04-96-012-50-598   STATE OF NORTH CAROLINA3              1         150,232
 MULTI   ALLDOL     07-MAR-97   04-97-004-50-598   STATE OF NORTH CAROLINA17             1           2,705
 MULTI   ALLDOL     31-MAR-97   04-97-017-50-598   STATE OF ALABAMA17                    2           4,610
 MULTI   ALLDOL     29-APR-96   05-96-209-50-598   WISCONSIN, STATE OF3                  4         124,680
 MULTI   ALLDOL     31-JAN-97   06-97-109-50-598   NEW MEXICO DEPT OF LABOR3            31               0




                                                          68
Semiannual Report to the Congress                                                     April 1, 1997 - September 30, 1997



                         UNRESOLVED AUDITS OVER 6 MONTHS
                                        April 1, 1997 - September 30, 1997
       Date            Audit                                                            No. of     Questioned
Agency Program         Issued        Report Number        Name of Audit/Auditee         Rec.       Costs


MULTI     ALLDOL       10-APR-96     09-96-544-50-598     GOVERNMENT OF GUAM3           1                 0
MULTI     ALLDOL       03-MAY-96     09-96-550-50-598     STATE OF WASHINGTON2          6            43,057
MULTI     ALLDOL       30-SEP-96     09-96-559-50-598     STATE OF CALIFORNIA3          8             3,674
MULTI     ALLDOL       20-SEP-96     09-96-560-50-598     STATE OF ARIZONA3             3                 0
MULTI     ALLDOL       10-SEP-96     09-96-562-50-598     HI DEPT OF LABOR & INDUS3     4                 0
MULTI     ALLDOL       11-FEB-97     09-97-507-50-598     STATE OF ALASKA3             12           123,334


TOTAL AUDIT EXCEPTIONS                                                                641        $19,157,126


Notes to "Unresolved Audits Over 6 Months"
1
  No Final Determination
2
  Initial Determination issued
3
  Unresolved during period
4
  Appealed
5
  Administrative finding(s) unresolved
6
  Unresolved pending response to final audit report
7
  Unresolved pending results of investigation
8
  Referred to Deputy Secretary
9
  Being resolved in conjunction w/FY 96 DOL Consolidated Audit
10
   Under review by Office of Cost Determination or w/Contract Officer
11
   ETA Initial Management Decision issued, awaiting Final Management Decision
12
   Pending indirect cost negotiation
13
   ETA coordinating resolution with OASAM/OCD
14
   Formerly under investigation--180 day resolution began June 13, 1997
15
   Not Used
16
   Final Decision not received from OSHA
17
   Currently in Resolution
18
   Resolved prior to issuance of this semiannual report




                                                                  69
                                          FINAL AUDIT REPORTS ISSUED BY THE OIG
                                                          April 1, 1997 - September 30, 1997

                                                                                                      No. of Non-     Questioned   Funds Put to
     Name of Audit                                                       Program   Report Number      Monetary Rec.   Costs        Better Use

     EMPLOYMENT AND TRAINING
     INFORMATION SHARING                                                  ADMIN    17-97-005-02-001              4             0            0
     UTEP DEMONSTRATION GRANT                                              JTPA    06-97-058-03-340              0             0            0
     STATE OF CALIFORNIA - AEROSPACE NETWORK                               JTPA    18-97-018-03-340              1             0            0
     MARE ISLAND NAVAL SHIPYARD                                            JTPA    18-97-026-03-340              0       154,101            0
     JOB CORPS NEEDS TO IMPROVE FOLLOWUP ON QUESTIONABLE PLACE              OJC    03-97-019-03-370              7             0            0
     SIERRA NEVADA JOB CORPS CENTER                                         OJC    09-97-006-03-370              0         2,308            0
     KIMBERLY INDUSTRIES, INC.                                              OJC    18-97-016-03-370              0     4,041,655            0
     MAINSTREAM, INC.                                                       OJC    18-97-024-03-370              3        31,998            0
     CHARLESGATE CONSTRUCTION COMPANY                                       OJC    18-97-027-03-370              0       861,596      817,763
     CASH MANAGEMENT PRACTICE BY THE JOB CORPS NATIONAL TRAINING            OJC    18-97-028-03-370              0             0            0
     JOHNSON, BASSIN AND SHAW, INC.                                         OJC    18-97-030-03-370              0        20,868            0
     OVERSIGHT OF JOB CORPS HEALTH CARE PROGRAM                             OJC    18-97-031-03-370              2             0            0
     NPIJATF PERFORMANCE AUDIT                                              OJC    18-97-033-03-370              9             0            0
     SCHOOL-TO-WORK OPPORTUNITIES PROGRAM IN MISSOURI                      STW     05-97-002-03-385              4        16,821            0
     SCHOOL-TO-WORK OPPORTUNITIES PROGRAM IN INDIANA                       STW     05-97-003-03-385             13        34,847            0
     STW BARRIERS MANAGEMENT LETTER                                        STW     05-97-004-03-385              0             0            0
70




     WORKPLACE BENEFITS
     AUDIT OF THE VIRGIN ISLAND UNEMPLOYMENT INSURANCE PROGRAM               UIS   02-97-220-03-315              6       269,404            0
     LIMITED SCOPE AUDIT OF SELECTED ELEMENTS OF THE STATE OF DEL            UIS   03-97-003-03-315             12       250,113            0
     LIMITED SCOPE OF MARYLAND UNEMPLOYMENT INSURANCE PROGRAM                UIS   03-97-057-03-315              7     1,317,215            0
     UNEMPLOYMENT TRUST FUND - SEPT. 30, 1996                                UIS   12-97-004-03-315              0             0            0
     MASS. ONE STOP PROJECT                                                USES    02-97-226-03-320              1             0            0
     DOL EQUITY IN SESA REAL PROPERTY - NEW HAMPSHIRE                      SESA    06-97-004-03-325              0             0            0
     DOL EQUITY IN SESA REAL PROPERTY - NORTH DAKOTA                       SESA    06-97-011-03-325              0       150,939            0
     DOL EQUITY IN SESA REAL PROPERTY - MONTANA                            SESA    06-97-016-03-325              0       164,471            0
     DOL EQUITY IN SESA REAL PROPERTY - MARYLAND                           SESA    06-97-020-03-325              0             0            0
     DOL EQUITY IN SESA REAL PROPERTY - RHODE ISLAND                       SESA    06-97-021-03-325              0             0            0
     DOL EQUITY IN SESA REAL PROPERTY - HAWAII                             SESA    06-97-022-03-325              0             0            0
     DOL EQUITY IN SESA REAL PROPERTY - UTAH                               SESA    06-97-023-03-325              0             0            0
     DOL EQUITY IN SESA REAL PROPERTY - ALABAMA                            SESA    06-97-024-03-325              0             0            0
     DOL EQUITY IN SESA REAL PROPERTY - INDIANA                            SESA    06-97-026-03-325              0             0            0
     DOL EQUITY IN SESA REAL PROPERTY - OKLAHOMA                           SESA    06-97-027-03-325              2             0            0
     DOL EQUITY IN SESA REAL PROPERTY - GEORGIA                            SESA    06-97-029-03-325              0             0            0
     DOL EQUITY IN SESA REAL PROPERTY - MINNESTOA                          SESA    06-97-030-03-325              0             0            0
     DOL EQUITY IN SESA REAL PROPERTY - OHIO                               SESA    06-97-031-03-325              0             0            0
     DOL EQUITY IN SESA REAL PROPERTY - NORTH CAROLINA                     SESA    06-97-032-03-325              0             0            0
     DOL EQUITY IN SESA REAL PROPERTY - ARKANSAS                           SESA    06-97-033-03-325              1             0            0
     DOL EQUITY IN SESA REAL PROPERTY-FLORIDA                              SESA    06-97-034-03-325              1       254,860            0
     DOL EQUITY IN SESA REAL PROPERTY - KANSAS                             SESA    06-97-035-03-325              0             0            0
     DOL EQUITY IN SESA REAL PROPERTY - NEW MEXICO                         SESA    06-97-036-03-325              0             0            0
     DOL EQUITY INSESA REAL PROPERTY - NEVADA                              SESA    06-97-037-03-325              0             0            0
     DOL EQUITY IN SESA REAL PROPERTY-PUERTO RICO                          SESA    06-97-038-03-325              0             0            0
     DOL EQUITY IN SESA REAL PROPERTY - WISCONSIN                          SESA    06-97-039-03-325              0       309,388            0
                                          FINAL AUDIT REPORTS ISSUED BY THE OIG
                                                          April 1, 1997 - September 30, 1997

                                                                                                          No. of Non-     Questioned    Funds Put to
     Name of Audit                                                    Agency/Program   Report Number      Monetary Rec.   Costs         Better Use
     DOL EQUITY IN SESA REAL PROPERTY - MICHIGAN                                SESA   06-97-040-03-325              0             0              0
     DOL EQUITY IN SESA REAL PROPERTY-SOUTH CAROLINA                            SESA   06-97-041-03-325              3       165,000              0
     DOL EQUITY IN SESA REAL PROPERTY - IOWA                                    SESA   06-97-042-03-325              0             0              0
     DOL EQUITY IN SESA REAL PROPERTY-KENTUCKY                                  SESA   06-97-043-03-325              0             0              0
     DOL EQUITY IN SESA REAL PROPERTY - WASHINGTON                              SESA   06-97-044-03-325              0        20,070              0
     DOL EQUITY IN SESA REAL PROPERTY - ALASKA                                  SESA   06-97-045-03-325              0             0              0
     DOL EQUITY IN SESA REAL PROPERTY - VIRGIN ISLANDS                          SESA   06-97-046-03-325              0             0              0
     DOL EQUITY IN SESA REAL PROPERTY - NEW JERSEY                              SESA   06-97-047-03-325              0             0              0
     DOL EQUITY IN SESA REAL PROPERTY - CALIFORNIA                              SESA   06-97-048-03-325              0       711,701              0
     DOL EQUITY IN SESA REAL PROPERTY - ARIZONA                                 SESA   06-97-049-03-325              0             0              0
     DOL EQUITY IN SESA REAL PROPERTY - MISSOURI                                SESA   06-97-050-03-325              0             0              0
     DOL EQUITY IN SESA REAL PROPERTY - NEW YORK                                SESA   06-97-051-03-325              0     3,952,692              0
     DOL EQUITY IN SESA REAL PROPERTY - NEBRASKA                                SESA   06-97-052-03-325              0             0              0
     DOL EQUITY IN SESA REAL PROPERTY - OREGON                                  SESA   06-97-053-03-325              0       739,444              0
     DOL EQUITY IN SESA REAL PROPERTY - IDAHO                                   SESA   06-97-054-03-325              0       542,465              0
     DOL EQUITY IN SESA REAL PROPERTY                                           SESA   06-97-056-03-325             14             0              0
     TEXAS WORKFORCE COMMISSION                                                 SESA   18-97-019-03-325              2     2,656,279              0
     MEDICAL PROVIDERS OVERBILL FECA MILLIONS EACH YEAR                         FECA   09-97-200-04-431              0     1,375,842      7,004,346
     FY 96 FECA SPECIAL BENEFIT FUND                                            FECA   12-97-007-04-431              0             0              0
71




     FECA MANAGEMENT ADVISORY COMMENTS SEPTEMBER 30, 1996                       FECA   12-97-009-04-431              0             0              0
     LONGSHORE AND HARBOR WORKERS’ COMPENSATION ACT SPECIAL FUND              DLHWC    12-97-002-04-432              0             0              0
     DCCA SPECIAL FUND AUDIT                                                  DLHWC    12-97-003-04-432              0             0              0
     LONGSHORE & DCCA MANAGEMENT ADVISORY COMMENTS                            DLHWC    12-97-011-04-432              6             0              0
     FY1996 BLACK LUNG DISABILITY TRUST FUND FINANCIAL STATEMENT              DLHWC    12-97-012-04-432              0             0              0
     BLDTF MANAGEMENT ADVISORY COMMENTS                                        CMWC    12-97-013-04-433              1             0              0
     STREAMLINING THE ERISA EFAST AND DEVELOPMENT OF EMS                       ADMIN   09-97-007-12-001              0             0              0
     AUDIT OF PWBA REPORTING AND DISCLOSURE                                  ENFORC    09-97-004-12-121              2             0      3,290,000
     BLS HOTLINE COMPLAINT REGARDING APPROPRIATIONS LAN ISSUES                 ADMIN   12-97-008-11-001              7        30,038              0

     WORKPLACE STANDARDS - LABOR RIGHTS ENFORCEMENT
     WHD SELEC OF EMPLRS FOR INVESTG & ALLOC OF RESRCS TO INDIVID              WHD     17-97-004-04-420              0            0              0

     DOL MANAGEMENT
     WOMEN WORK! THE NATIONAL NETWORK FOR WOMEN’S EMPLOYMENT                    ASP    18-97-022-01-010              0        23,586             0
     HOMELESS DEMONSTRATION PROJECTS                                          ADMIN    04-97-018-03-001              2             0             0
     FAIR PRESENTATION OF EMPLOYMENT & TRAINING PROGRAM PERFORMANCE           ADMIN    17-97-002-03-001             34             0             0
     AUDIT OF THE DEPARTMENT’S PROCUREMENT REVIEW BOARD                       ADMIN    17-97-003-07-001              0             0             0
     LIMITED-SCOPE REVIEW OF TCU’S INDIRECT COST                              OPGM     18-97-021-07-735              0             0       206,513
     CONSULTING & PROGRAM MANAGEMENT SERVICE, INC.                            OPGM     18-97-025-07-735              0       604,510             0
     INVENTORIES OF JOB CORPS PROPERTY                                        OPGM     18-97-029-07-735              0             0       300,000
     KRA 1/CFYS 1994 & 1995                                                   OPGM     18-97-032-07-735              0       437,272             0
     FY 96 DOL MGMT ADVISORS COMMENTS                                         ADMIN    12-97-010-13-001              5             0             0


                                                                             Totals                 80            149 $19,139,483      $11,618,622
                                                FINAL SINGLE AUDIT REPORTS
                                                       April 1, 1997 - September 30, 1997
                                                                                                  No. of Non-     Questioned   Funds Put to
     Name of Audit                                                   Program    Report Number     Monetary Rec.   Costs        Better Use

     SINGLE AUDITS

     RUTGERS UNIVERSITY                                                  ASP   02-97-218-01-010             0             0            0
     BUREAU OF REHABILITATION, INC.                                      ASP   03-97-046-01-010             0             0            0
     NATIONAL EMPLOYER COUNCIL, INC.                                   ADMIN   03-97-025-02-001             0             0            0
     WOMEN’S RESEARCH AND EDUCATION INSTITUTE                          ADMIN   03-97-026-02-001             0             0            0
     CITY OF JACKSONVILLE, FL                                          ADMIN   04-97-011-02-001             0             0            0
     EASTERN MONTGOMERY COUNTY AREA VOC TECH SCHOOL                    OTAA    03-97-038-03-330             0             0            0
     GOODWILL INDUSTRIES INTERNATIONAL, INC                             JTPA   03-97-016-03-340             0             0            0
     GOODWILL INDUSTRIES INTERNATIONAL, INC.                            JTPA   03-97-017-03-340             0             0            0
     GOODWILL INDUSTRIES INTERNATIONAL, INC.                            JTPA   03-97-018-03-340             0             0            0
     THE NATIONAL FEDERATION OF THE BLIND                               JTPA   03-97-021-03-340             0             0            0
     THE NATIONAL FEDERATION OF THE BLIND                               JTPA   03-97-022-03-340             0             0            0
     THE NATIONAL FEDERATION OF THE BLIND                               JTPA   03-97-023-03-340             0             0            0
     EPILEPSY FOUNDATION OF AMERICA                                     JTPA   03-97-027-03-340             0             0            0
     EPILEPSY FOUNDATION OF AMERICA                                     JTPA   03-97-028-03-340             0             0            0
     EPILEPSY FOUNDATION OF AMERICA                                     JTPA   03-97-029-03-340             0             0            0
     MAINSTREAM, INC.                                                   JTPA   03-97-031-03-340             0             0            0
     CITIES IN SCHOOLS, INC.                                            JTPA   03-97-041-03-340             0             0            0
72




     NATIONAL ASSOCIATION OF COUNTIES AND AFFILIATES                    JTPA   03-97-049-03-340             0             0            0
     SER-JOBS FOR PROGRESS NATIONAL, INC.                               JTPA   06-97-115-03-340             0             0            0
     SER-JOBS FOR PROGRESS NATIONAL, INC.                               JTPA   06-97-116-03-340             0             0            0
     SER-JOBS FOR PROGRESS NATIONAL, INC.                               JTPA   06-97-117-03-340             0             0            0
     AMERICAN REHABILITATION ASSOCIATION, INC.                          OSTP   03-97-036-03-350             0             0            0
     NATIONAL TOOLING AND MACHINING ASSOCIATION                         OSTP   03-97-037-03-350             1             0            0
     RHODE ISLAND INDIAN COUNCIL, INC.                                 DINAP   02-97-214-03-355             2         2,104            0
     SAINT REGIS MOHAWK TRIBE                                          DINAP   02-97-221-03-355             0             0            0
     CENTRAL MAINE INDIAN ASSOCIATION, INC.                            DINAP   02-97-224-03-355             2             0            0
     COUNCIL OF THREE RIVERS AMERICAN INDIAN CENTER                    DINAP   03-97-039-03-355             0             0            0
     COUNCIL OF THREE RIVERS AMERICAN INDIAN CENTER                    DINAP   03-97-040-03-355             0             0            0
     AMERICAN INDIAN OIC, INC                                          DINAP   05-97-110-03-355             0             0            0
     AMERICAN INDIAN COUNCIL, INC                                      DINAP   05-97-116-03-355             0             0            0
     LEECH LAKE RESERVATION                                            DINAP   05-97-214-03-355             0             0            0
     NATIONAL COUNCIL OF SENIOR CITIZENS, INC.                         DOWP    03-97-010-03-360             1             0            0
     GREEN THUMB, INC. FYE 6/30/95                                     DOWP    03-97-020-03-360             0             0            0
     THE NATIONAL COUNCIL ON THE AGING, INC.                           DOWP    03-97-042-03-360             0             0            0
     AMERICAN ASSOCIATION OF RETIRED PERSONS                           DOWP    03-97-050-03-360             0             0            0
     NEW MEXICO STATE AGENCY ON AGING                                  DOWP    06-97-226-03-360             0             0            0
     RURAL OPPORTUNITIES, INC. & AFFILIATES                             DSFP   02-97-222-03-365             0             0            0
     ASSOCIATION OF FARMWORKERS OPPORTUNITY PROGRAMS                    DSFP   03-97-048-03-365             0             0            0
     KENTUCKY FARMWORKER PROGRAMS, INC                                  DSFP   04-97-021-03-365             0             0            0
     MIDWEST FARMWORKER EMPLOYMENT & TRAINING, INC                      DSFP   05-97-109-03-365             0             0            0
     PROTEUS, INC.                                                      DSFP   05-97-111-03-365             0             0            0
     NAF MULTICULTURAL HUMAN DEVELOPMENT CORP                           DSFP   05-97-113-03-365             0             0            0
     SER CORPORATION                                                    DSFP   05-97-114-03-365             0             0            0
     ILLINOIS MIGRANT COUNCIL                                           DSFP   05-97-115-03-365             0             0            0
     FOX CITIES CHAMBER FOUNDATION, INC                                  STW   05-97-112-03-385             0        20,388            0
                                                   FINAL SINGLE AUDIT REPORTS
                                                        April 1, 1997 - September 30, 1997
                                                                                                    No. of Non-     Questioned   Funds Put to
     Name of Audit                                                   Program    Report Number       Monetary Rec.   Costs        Better Use


     NEW MEXICO INSTITUTE OF MINING & TECHNOLOGY                       GRTEES   06-97-227-06-601               0             0            0
     JOHNS HOPKINS UNIVERSITY SCHOOL OF HYGIENE                         ADMIN   03-97-054-10-001               0             0            0
     SYRACUSE UNIVERSITY                                                 BLSG    02-97-217-11-111              0             0            0
     STATE OF RHODE ISLAND & PROVIDENCE PLANTATIONS                    ALLDOL   02-97-204-50-598              20             0            0
     STATE OF MAINE                                                    ALLDOL   02-97-213-50-598              22             0            0
     COMMONWEALTH OF MASSACHUSETTS                                     ALLDOL   02-97-215-50-598               6             0            0
     STATE OF NEW JERSEY                                               ALLDOL   02-97-216-50-598               9             0            0
     STATE OF NEW HAMPSHIRE                                            ALLDOL   02-97-219-50-598               0             0            0
     STATE OF NEW YORK                                                 ALLDOL   02-97-223-50-598               1             0            0
     STATE OF CONNECTICUT                                              ALLDOL   02-97-225-50-598               9             0            0
     WOMEN’S RESEARCH AND EDUCATION INSTITUTE                          ALLDOL   03-97-030-50-598               0             0            0
     CITY OF BALTIMORE, MARYLAND                                       ALLDOL   03-97-032-50-598               0             0            0
     COUNTY OF ALLEGHENY, PENNSYLVANIA                                 ALLDOL   03-97-033-50-598               0             0            0
     STATE OF DELAWARE                                                 ALLDOL   03-97-035-50-598               0       306,932            0
     NATIONAL GOVERNORS’ ASSOCIATION CENTER FOR POLICY RESEARCH        ALLDOL   03-97-043-50-598               0             0            0
     DC DEPARTMENT OF EMPLOYMENT SERVICES                              ALLDOL   03-97-044-50-598               5       111,318            0
     NATIONAL ALLIANCE OF BUSINESS, INC.                               ALLDOL   03-97-045-50-598               0             0            0
     NATIONAL ACADEMY OF SCIENCES                                      ALLDOL   03-97-047-50-598               0             0            0
73




     HOME BUILDERS INSTITUTE                                           ALLDOL   03-97-051-50-598               0             0            0
     HUMAN RESOURCES DEVELOPMENT INSTITUTE                             ALLDOL   03-97-053-50-598               0             0            0
     COMMONWEALTH OF PENNSYLVANIA                                      ALLDOL   03-97-055-50-598               8         1,426            0
     STATE OF MARYLAND                                                 ALLDOL   03-97-056-50-598               6             0            0
     STATE OF MISSISSIPPI                                              ALLDOL   04-97-005-50-598               0             0            0
     STATE OF FLORIDA                                                  ALLDOL   04-97-019-50-598               3             0            0
     STATE OF KENTUCKY                                                 ALLDOL   04-97-022-50-598               4             0            0
     MICHIGAN EMPLOYMENT SECURITY COUNCIL                              ALLDOL   05-97-108-50-598              13         5,637            0
     ARKANSAS DEPARTMENT OF LABOR                                      ALLDOL   06-97-118-50-598               0             0            0
     STATE OF SOUTH DAKOTA                                             ALLDOL   06-97-228-50-598               0             0            0

     TOTALS                                                                                   73             112      $447,805           $0
Semiannual Report to the Congress                          April 1, 1997 - September 30, 1997




   INVESTIGATIONS:BREAKDOWN OF ACCOMPLISHMENTS

                                                     Division          OI
                                                     Totals            Total
            Cases Opened
                    Program Fraud                    225
                    Labor Racketeering               59                284

            Cases Closed
                    Program Fraud                    186
                    Labor Racketeering               58                244

            Referred for Prosecution
                    Program Fraud                    95
                    Labor Racketeering               64                159

            Cases Referred for
            Administrative/Civil Action
                    Program Fraud                    268
                    Labor Racketeering               20                288

            Indictments
                    Program Fraud                    79
                    Labor Racketeering               58                137

            Convictions
                    Program Fraud                    70
                    Labor Racketeering               54                124

            Debarments
                    Program Fraud                    2
                    Labor Racketeering               27                29

            Recoveries, Cost Efficiencies,
            Restitutions, Fines/Penalites,
            Forfietures and Civil Monetary Actions
                    Program Fraud                    $7.5
                    Labor Racketeering               $17.8             $25.3



                                          74
Semiannual Report to the Congress                                    April 1, 1997 - September 30, 1997




 INVESTIGATIONS:COMPLAINT ACTIVITY



                         ANALYSIS OF COMPLAINT ACTIVITY
                      Breakdown of Allegation Reports by Source:

                Hotline Operations - Calls and Letters
                from Individuals or Organizations                134
                Letters from Congress                             11
                Letters from DOL agencies                          9
                Incident Reports from DOL agencies                 2
                Reports by Special Agents and Auditors             1

                GAO                                                0
                                                         Total   157


                      Breakdown of Allegation Reports by Referral:


                Referred to Office of Audit
                                                                     4

                Referred to OI Regional/Field Offices             31

                Referred to DOL Program Management                98

                Referred to other agencies                        13

                No further action required                        12

                Pending disposition at end of period                 0

                                                         Total   158



                                                 75
Semiannual Report to the Congress                                                     April 1, 1997 - September 30, 1997




  INVESTIGATIONS:FINANCIAL ACCOMPLISHMENTS

              Categories                                                                $Amount

              Recoveries:                                                               5,267,080

              (The dollar amount/value of an agency’s action to recover or reprogram funds or to
              make other adjustments in response to OI investigations.)


              Cost Efficiencies:                                                        3,707,134

              (The one-time or per annum dollar amount/value of management’s commitment, in
              response to OI investigations, to more efficiently utilize the Government’s resources.)


              Restitutions:                                                           15,698,662

              (The dollar amount/value of restitutions resulting from OI criminal investigations.)


              Fines/Penalties                                                             468,886

              (The dollar amount/value of fines, assessments, seizures, investigative/court costs, or
              other penalties resulting from OI criminal investigations.)


              Civil Monetary Actions:                                                     227,529

              (The dollar amount/value of forfeitures, settlements, damages, judgments,
              court costs, or other penalties resulting from OI civil investigations.)

              Total:                                                                  25,369,291




                                                        76
Semiannual Report to the Congress                                        April 1, 1997 - September 30, 1997



                     OFFICE OF INVESTIGATIONS CASE LIST
                                    April 1, 1997 - September 30, 1997
Defendant/Subject               Indicted     Convicted   Sentenced                         Monetary

EMPLOYEE MISCONDUCT
CUNNINGHAM, ANDRE                                                                               1,620
JACKSON, BRENDA                                      X           X                              2,002
MARZESKI, WILLIAM                                    X                                              0
PHILLIPS, TED E.                                                 X                                550
STOREY, LILLIAN                                                  X                             23,214

EMPLOYMENT STANDARDS ADMINISTRATION
BLACK LUNG
HOLLANDSWORTH, JUNETTA                                                                         11,952
HUBBARD, CYNTHIA I.                                  X           X                             10,040


FECA
BARNETT, RICHARD L.                     X                                                           0
BICKERSTAFF, CHARLES                    X                                                           0
BOONE, MICHAEL I.                       X            X           X                             11,095
BROWN, DAVID                                                     X                              6,945
BURT, OLLIE                                                      X                             36,404
CARLSON, DONALD ROBERT                               X           X                             17,025
CLEMONS, TONY A.                                                 X                             57,575
DARK, GLYN                                                                                     16,657
DIFUCCIA, RALPH                                      X           X                             85,900
FITZGERALD, SUSAN                       X            X           X                             24,204
GELSER, JANICE                          X            X                                              0
GIESE, DARWIN O.                        X                                                           0
GILLIAM, ROBERT                                                  X                              1,875
GIUNTA, ANTONIO JOHN                    X                                                           0
GLOWSKI, MARK RN                        X                                                           0
HENRY, CHARLES                          X            X                                              0
HENRY, NINA M.                          X            X                                              0
HINES, ROBERT M.                        X            X           X                              3,050
HOLMES, HARVEY DEAN                                  X                                         62,809
IOVINE, ANTOINETTE                                               X                              2,800
JONES, WANNELL                                                   X                             31,555
LAB, LOUIS                                                       X                             87,601
LARKIN, LEE                             X                                                           0
LEWIS, ADOLPHUS RAY                     X            X           X                                600
MIMMS, ALSINA                           X            X           X                             46,396
NUNEZ, ISMAEL                           X            X           X                              8,391
NWACHUKU, HELEN                                      X                                              0
PHILLIPS, DANNY L.                                               X                             64,396
POLK, RALPH                             X                                                           0
ROBERTS, DANIELLE                       X                                                           0
ROBINSON, DEBORAH                       X                                                           0
RODRIGUES, JOHN F.                      X            X                                              0
SAXTON, WILLIAM                         X                                                           0
SELMON, JACKIE                          X                                                           0
SIEGEL, HEATHER                                      X           X                             16,122
SMART, WILLIAM H.                                                X                                100
SMITH, CHARLES D                        X            X           X                              9,772
WIEGAND, VIOLA                                       X           X                              2,800
WINKLER, GARY                                        X           X                              4,347



                                                    77
Semiannual Report to the Congress                                         April 1, 1997 - September 30, 1997



                       OFFICE OF INVESTIGATIONS CASE LIST
                                     April 1, 1997 - September 30, 1997
  Defendant/Subject                 Indicted   Convicted   Sentenced                         Monetary

 LSHWC

 BATTEN, MARK D.                         X                                                            0
 BRAGG. DONALD MICHAEL,                  X                                                            0
 EVANS, ARNOLD JOSEPH WAYNE              X                                                            0
 HINSON, SIDNEY                                      X            X                              11,171
 LOWERY, DANNY JOE                                                                                    0
 STINSON, JOHNNY L.                                               X                              83,362


 W&H
 INDUSTRIAL CONSTRUCTION SERVIC,                                                                116,500
 SAN LUIS GONZAGA CONSTRUCTION,          X                                                            0
 TALAO, GERARDINA                        X                                                            0
 TALAO, MARIA                            X                                                            0
 TALAO, VIRGILIO                         X                                                            0


 OTHER
 BOWMAN, DAVID T.                        X                                                            0
 LAMANNA, SALVIN R.                                               X                             129,483


 EMPLOYMENT & TRAINING ADMINISTRATION
 TJTC
 BROWN, DERRICK                                                   X                              37,000
 CURLES, DENA                                                     X                                  50
 MOORE, LISA                                                      X                              37,050


 JTPA
 ASSOCIATION HOUSE OF CHICAGO,                                                                   62,268
 BORGES, JAIME                                                                                    7,500
 BRUMFIELD, STEPHONY                                 X            X                               4,419
 FRIERSON, JEWEL C.                                                                               2,000
 GARDNER, ELLOYD                         X           X            X                               3,050
 GOLMAN, QUINTON                                     X            X                              38,050
 HALL, DEBORAH                                       X            X                              12,200
 HARRELL, SHIRLEY                                    X            X                               4,104
 HARRIS, GARY RUSSELL                    X                                                            0
 HIKIND, DOV                             X                                                            0
 HUGGANS, CHARLIE                                    X            X                               3,883
 MOORE, DEREK                                        X            X                               5,987
 NELSON, DELORES JEAN                    X           X            X                               3,050
 SAMLETZKA, EDWARD                                   X            X                                 483
 SMITH, LAWRENCE                                     X            X                               8,620
 WILSON, STACIE                                      X            X                               4,367
 WILSON, TONIA                                       X            X                                 910
 WILSON, VALERIE                                     X            X                                 653


 SESA/UI
 ABREU, MIGUEL                           X           X            X                               4,000
 BARNES, MARK O.                         X                                                            0
 BARNES, THOMAS                          X           X                                                0



                                                     78
Semiannual Report to the Congress                                        April 1, 1997 - September 30, 1997



                     OFFICE OF INVESTIGATIONS CASE LIST
                                    April 1, 1997 - September 30, 1997
Defendant/Subject               Indicted     Convicted   Sentenced                         Monetary

BEECHUM, O. J.                          X           X           X                               5,801
BETHEL, PAMELA                          X                                                           0
BOWDEN, DAREN L.                                                X                                 400
BOWDEN, SHANNON                                                 X                                 550
BROUSSARD, RICHARD                                  X           X                               4,213
BROWN, KENNETH C.                       X                                                           0
BUSH, GEORGE                            X           X           X                               4,716
CAROSI, MARK A.                                                 X                               5,250
CARTER, BRUCE E.                                                X                                  50
CARTER, JERZINE                                     X           X                                  25
CHINN, JAMES JR.                        X                                                           0
CLARK, GEORGE                           X           X           X                                1350
COBB, SHIRLEY                           X           X           X                               5,426
COTTON, GAIL LYNETTE DEMPSEY                        X           X                               7,471
DAWN, KENNETH                           X                                                           0
DIXON, MICHAEL A.                       X                                                           0
DOWDY, BRENDA                           X                                                           0
EBERLY, ANTHONY                         X           X                                               0
EGELSTON, JIMMIE D.                                 X           X                                 335
EMEDI, MAMBO MTANGE                                 X                                               0
FARRELL, LAWRENCE                                   X                                               0
FINLEY, JIMMIEL L.                      X                                                           0
FINLEY, SYLVIA L.                       X                                                           0
FRANKLIN, DELOIS L.                                             X                                 250
FRANKLIN, JOYCE                                                 X                                 250
FRIANO, CIRO SR.                        X           X           X                               5,117
HARRIS, ROSALYN                                     X           X                              10,050
HOLMES, KEITH A                         X                                                           0
HUALPA, GUILLERMO                                                                               5,932
HUGHES, DEANNA                          X                                                           0
HUNTER, JAMES                           X           X                                               0
IRONS, STANLEY                                                  X                               5,498
JACKSON, ANGELA D.                      X                                                           0
JOHNSON, WANDA                                      X           X                               3,037
LILLY, SHAWNTA R.                       X           X           X                               1,100
LOPEZ, BEVERLY                          X           X           X                               6,649
LUPO, PAUL                              X           X           X                              30,708
LYNN, LISA M.                           X           X                                               0
MARTIN, BETTY                                                   X                              12,875
MARTIN, CLIFFORD RAY                                            X                               6,050
MARTIN, KIMBERLY CAROLYN                                        X                               4,505
MARTIN, TEANDRA                         X                                                           0
MARTINEZ - CASTILLO, VIDAL              X                                                           0
MCCRORY, JAMES W.                       X                                                           0
MCLENDON, MICHAEL L.                    X                                                           0
MOORE, TALISA N.                        X                                                           0
MOSSBURG, JAMES H.                      X           X                                               0
MURPHY, JACQUELYN                       X           X           X                                   0
NASH, KEVIN M.                                      X           X                               9,146
NETTLES, LESTER                                     X           X                               4,632
O’DONNELL, SUSAN                        X           X           X                              30,708
OREJUELA, JOHNNY                        X                                                           0
PARKER, DARYL F.                        X                                                           0
PEGROSS, SHERMANITA                                 X           X                                  50
PERNELL, JEFFREY                                                X                                  50
PHILLIPS, ALBERT N. JR.                 X           X                                               0



                                                    79
Semiannual Report to the Congress                                         April 1, 1997 - September 30, 1997



                       OFFICE OF INVESTIGATIONS CASE LIST
                                     April 1, 1997 - September 30, 1997
  Defendant/Subject                 Indicted   Convicted   Sentenced                         Monetary

  PHILLIPS, IDA L.                        X                                                            0
  RAWLS, GREGORY                          X           X            X                               1,200
  RAWLS, SAMUEL L                         X           X            X                                 800
  RICHARDSON, DION L                      X           X            X                                 540
  ROCHESTER, MELVIN                       X                                                            0
  SIMPSON, SHON STERLING                                           X                               5,132
  SKINNER, DONTE                                      X            X                               5,475
  STONE, MARY                             X           X            X                                   0
  TAYLOR, G.W. JR                         X           X            X                                 340
  THOMPSON, HEZRON D.                     X                                                            0
  WEBB, KIM                                                        X                              17,650
  WILLIAMS, IRVING                                    X            X                                 250
  WILLIAMS, ROEMAN                        X           X            X                                 760


  MINE SAFETY & HEALTH ADMINISTRATION
  HEYER, WILLIAM                                                   X                                 50


  LABOR RACKETEERING
  BERRY, PRESTON                          X                                                            0
  CHONG, JAY                              X                                                            0
  CHONG, JIN                              X                                                            0
  KO, KUN OK                              X                                                            0
  KO, MYUNG HEE                           X                                                            0
  KO, YOUNG                               X                                                            0
  PANIGUTTI, HERMAN                       X           X            X                               1,050
  POLLACK, SANDFORD                                                X                                  50
  POLLACK, SANFORD37                                               X                               1,450
  SPINA, CIRO                                                                                      2,500
  WEAST, ELIZABETH MURDEN                 X                                                            0


  BENEFIT PLAN

  BEZMALINOVIC, KRESCO P                              X                                                0
  BLACK, BRUCE                                                     X                              72,700
  BROSS, DAVID                            X                                                            0
  BROUILLETTE, RICHARD                    X                                                            0
  CARLOW, FRANK V.                        X                                                            0
  DALY, TIMOTHY                           X           X            X                               2,100
  DEANGELIS, ALBERT                       X           X                                                0
  FABIANI, CARY                                       X            X                                  50
  FAST, WILLIAM M                                                  X                               1,000
  FERRAIOLI, SALVATORE                                             X                             500,750
  FRANKOLA, MARINO                        X           X                                                0
  FREEMAN, TERRENCE K.                    X                                                            0
  GARAVAGLIA, CHARLES                                 X                                                0
  GEE, MARY                               X                                                            0
  GRODD, ARTHUR D                         X           X            X                           1,007,900
  HARRISON, KENNETH                       X           X                                                0
  HOLLENBACH, PETER J                     X                                                            0
  HOROWITZ, BURTON                        X                                                            0




                                                     80
Semiannual Report to the Congress                                        April 1, 1997 - September 30, 1997



                     OFFICE OF INVESTIGATIONS CASE LIST
                                    April 1, 1997 - September 30, 1997
Defendant/Subject               Indicted     Convicted   Sentenced                        Monetary

HRKMAN, NICHOLAS                                                 X                                 50
JENSEN, GEORGE                                       X                                              0
JOHNSTONE, LINDA                        X            X                                              0
KALYVAS, JAMES                          X                                                           0
KOEHN, CHERI                            X            X                                              0
KORTSCH, FRANCIS J                                   X           X                             48,613
KORZENIEWSKI, RICHARD                   X                                                           0
MALDONADO, OSCAR                                                 X                              1,050
MCQUATTERS, RICHARD H.                                           X                                  0
MENDENHALL, NOLAN                                    X                                              0
MICHELI, LOUIS                                       X                                              0
MILLER, MICHAEL                                      X                                              0
MOLINARI, MARIE                                      X           X                                  0
MOLINARI, ROCCO                                      X           X                          1,867,832
NEAL, TIMOTHY                                                    X                            500,000
PELLEGRIN, GLENN                        X            X                                              0
POLLACK, SANFORD                                                 X                          9,250,000
PONTE, JOHN                             X            X           X                              2,100
RENNERT, PHILIP                                      X                                              0
ROGERS, GEORGE                                       X           X                             73,097
ROSEN, MICHAEL                          X            X                                              0
SARTAIN, FRANCIS                        X            X                                              0
SHIPSEY, GEORGE MICHAEL                              X                                              0
SOMERSTEIN, MARIANNA                                 X                                              0
SOMERSTEIN, STUART                                   X                                              0
VERGALLITO, AUGUST                      X            X           X                                550
WEBSTER, LARRY                          X                                                           0
YEAMAN, DAVID                                        X                                              0


INTERNAL UNION
ANDERSON, JAMES S.                      X                                                           0
ANDERSON, MARK                          X                                                           0
CAMPBELL, ROBERT L                                   X           X                                  0
CARMELLA GAROFALO                       X                                                           0
CONTRERAS, LINDA                        X                                                           0
DIXON, WALTER                                                    X                              1,775
EBY, KENNETH R                                       X           X                                  0
FITZPATRICK, MICHAEL                    X                                                           0
FRIZELL, MIKE                                                    X                                  0
GAGNE, JOSEPH                           X                                                           0
GEORGOPOULOS, JOHN                      X            X                                              0
GREENSTAR COMPANY INC,                               X           X                             37,000
KELLER, CLAUDIA                         X                                                           0
KELLEY, JAN                                                      X                             30,250
KELLEY, VINCENT                                                  X                             35,250
LOUIS PARISE, JR.                                                X                              4,400
LOUIS PARISE                                                     X                            191,697
MCGORMAN, JAMES                         X            X           X                                  0
MORALES, MARCOS                         X            X           X                            185,000
NARDI, NICK                             X                                                           0
PAVCO,                                                           X                             38,684
RAWLINGS, TODD                                       X           X                                  0
REED, ROBERT A                                       X           X                                  0
RUPARD, GORDON                                       X           X                                  0


                                                    81
Semiannual Report to the Congress                                         April 1, 1997 - September 30, 1997



                       OFFICE OF INVESTIGATIONS CASE LIST
                                     April 1, 1997 - September 30, 1997
  Defendant/Subject                 Indicted   Convicted   Sentenced                          Monetary

  SAVIGLIANO, ROY JOSEPH                  X                                                            0
  SKERIES, ROBERT.                        X           X                                                0
  WALTON, DENNIS J                        X                                                            0
  WARD, WILLIAM                           X           X           X                                    0
  WELLER, DONALD K                                                X                               14,825
  WILLIAMS, JOANNE                        X                                                            0
  WILLIAMS, RAY CHARLES                   X           X                                                0
  YEAGER, TRAVIS                                      X           X                                    0

  LABOR-MANAGEMENT RELATIONS
  BARRON, DONALD L                        X           X                                                0
  BIANCO, ANTHONY T.                      X           X                                                0
  BLOOM, JAY                              X           X                                                0
  BROWN, RICHARD                          X                       X                              107,250
  DANELLA, DENNIS G                       X           X                                                0
  EDWARDS, DARLENE M                                              X                              107,250
  FINKLE, JAMES                           X           X                                                0
  FISHER, MIKE                                        X                                                0
  GRAFF, STEFAN                                       X                                                0
  GRIFFIN, BOB F                                      X                                                0
  HEIDEMAN, STEVE                         X           X                                                0
  MARACLE, LEONARD                                                X                                1,075
  MEASE, WILLIAM                          X                                                            0
  MIGLIORE, LOUIS                         X           X                                                0
  SANTIAGO, ENRIQUE                                               X                              116,441
  SCHANK, GEORGE                          X           X                                                0
  SHEPPARD, BRYAN                                                 X                              107,250
  SHEPPARD, EARL                                                  X                              107,250
  SHEPPARD, FRANK                                                 X                              107,250
  SIMMONS, CATHRYN M                                  X                                                0
  TALARICO, JOSEPH                        X                                                            0
  TALARICO, SAMUEL J                      X                                                            0
  WEHBY, WILLIAM                                                  X                               67,240

  TOTAL                                137          124         132                      $16,395,077




                                                    82
